<html>
<title> - H.R. 3286, PROTECTING STATES OPENING NATIONAL PARKS ACT; H.R. 3294, STATE-RUN FEDERAL LANDS ACT; H.R. 3311, PROVIDE ACCESS AND RETAIN CONTINUITY (PARC) ACT; H.R. 3492, RIVER PADDLING PROTECTION ACT; AND H.R. 915, THE PEACE CORPS COMMEMORATION ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
 H.R. 3286, PROTECTING STATES OPENING NATIONAL PARKS ACT; H.R. 3294, 
  STATE-RUN FEDERAL LANDS ACT; H.R. 3311, PROVIDE ACCESS AND RETAIN 
 CONTINUITY (PARC) ACT; H.R. 3492, RIVER PADDLING PROTECTION ACT; AND 
              H.R. 915, THE PEACE CORPS COMMEMORATION ACT

=======================================================================


                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      Thursday, November 21, 2013

                               __________

                           Serial No. 113-52

                               __________

       Printed for the use of the Committee on Natural Resources


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
   

                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

85-668 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Steven A. Horsford, NV
Raul R. Labrador, ID                 Jared Huffman, CA
Steve Southerland, II, FL            Raul Ruiz, CA
Bill Flores, TX                      Carol Shea-Porter, NH
Jon Runyan, NJ                       Alan S. Lowenthal, CA
Mark E. Amodei, NV                   Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Chris Stewart, UT                    Vacancy
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Jason T. Smith, MO

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Louie Gohmert, TX                    Rush Holt, NJ
Doug Lamborn, CO                     Madeleine Z. Bordallo, GU
Paul C. Broun, GA                    Gregorio Kilili Camacho Sablan, 
Tom McClintock, CA                       CNMI
Cynthia M. Lummis, WY                Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Raul R. Labrador, ID                 Steven A. Horsford, NV
Mark E. Amodei, NV                   Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Jared Huffman, CA
Jason T. Smith, MO                   Peter A. DeFazio, OR, ex officio
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                                ----------                              
                                                                   Page

Hearing held on November 21, 2013................................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
        Prepared statement of....................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4

Statement of Witnesses:
    Cox, Hon. Spencer J., Lieutenant Governor, State of Utah.....    17
        Prepared statement of....................................    19
    Farr, Hon. Sam, a Representative in Congress from the State 
      of California..............................................     9
    Kennedy, Hon. Joseph P., a Representative in Congress from 
      the State of Massachusetts.................................     6
    Nelson, Dr. Robert H., Professor, School of Public Policy, 
      University of Maryland.....................................    50
        Prepared statement of....................................    51
    Petri, Hon. Thomas E., a Representative in Congress from the 
      State of Wisconsin.........................................     8
    Pruzan, Aaron, Wilson, Wyoming...............................    42
        Prepared statement of....................................    43
    Sease, Matthew, Treasurer, Montana Lodging and Hospitality 
      Association................................................    21
        Prepared statement of....................................    23
    Sheaffer, Bruce, Comptroller, National Park Service, U.S. 
      Department of the Interior.................................    10
        Prepared statement of....................................    12

Additional Materials Submitted for the Record:
    American Whitewater, Prepared statement of...................    36
    American Packrafting Association, Prepared statement of......    39
    Letters submitted for the record by Representative Grijalva..    57
    List of documents submitted for the record retained in the 
      Committee's official files.................................    70
    U.S. Department of the Interior, Prepared statement on H.R. 
      3492.......................................................    68
                                     

LEGISLATIVE HEARING ON: H.R. 3286 (DAINES), TO DIRECT THE SECRETARY OF 
        THE TREASURY TO REIMBURSE STATES THAT USE STATE FUNDS TO 
        OPERATE NATIONAL PARKS DURING THE FEDERAL GOVERNMENT SHUTDOWN, 
        AND FOR OTHER PURPOSES, ``PROTECTING STATES OPENING NATIONAL 
        PARKS ACT''; H.R. 3294 (YOUNG), TO ESTABLISH A STREAMLINED 
        PROCESS THROUGH WHICH A STATE MAY CLAIM AUTHORITY OVER AND 
        RESPONSIBILITY FOR MANAGEMENT OF FEDERAL LANDS LOCATED IN THE 
        STATE WITHOUT CLAIMING OWNERSHIP OF THE LAND, AND FOR OTHER 
        PURPOSES, ``STATE-RUN FEDERAL LANDS ACT''; H.R. 3311 (STEWART), 
        TO DIRECT THE SECRETARY OF THE INTERIOR TO ENTER INTO 
        AGREEMENTS WITH STATES TO ALLOW CONTINUED OPERATION OF 
        FACILITIES AND PROGRAMS THAT HAVE BEEN DETERMINED TO HAVE A 
        DIRECT ECONOMIC IMPACT ON TOURISM, MINING, TIMBER, OR GENERAL 
        TRANSPORTATION IN THE STATE AND WHICH WOULD OTHERWISE CEASE 
        OPERATING IN WHOLE OR IN PART DURING A FEDERAL GOVERNMENT 
        SHUTDOWN THAT IS THE RESULT OF A LAPSE IN APPROPRIATIONS, AND 
        FOR OTHER PURPOSES, ``PROVIDING ACCESS AND RETAIN CONTINUITY 
        (PARC) ACT''; H.R. 3492 (LUMMIS), TO PROVIDE FOR THE USE OF 
        HAND-PROPELLED VESSELS IN YELLOWSTONE NATIONAL PARK, GRAND 
        TETON NATIONAL PARK, AND THE NATIONAL ELK REFUGE, AND FOR OTHER 
        PURPOSES; AND H.R. 915 (KENNEDY), TO AUTHORIZE THE PEACE CORPS 
        COMMEMORATIVE FOUNDATION TO ESTABLISH A COMMEMORATIVE WORK IN 
        THE DISTRICT OF COLUMBIA AND ITS ENVIRONS, AND FOR OTHER 
        PURPOSES
                              ----------                              


                      Thursday, November 21, 2013

                     U.S. House of Representatives

        Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Young, Lamborn, Lummis, 
Labrador, Daines, LaMalfa, Smith, Grijalva, Tsongas, Shea-
Porter, Garcia, and DeFazio.
    Also Present: Representatives Kennedy, Farr, Petri and 
Stewart.
    Mr. Bishop. All right. Noting the presence of a quorum, we 
will call this subcommittee hearing together and assume I just 
banged the gavel because I have no idea where it is. Oh, there 
it is. Who cares? Bang.
    The Subcommittee on Public Lands and Environmental 
Regulation is meeting today to hear testimony on five bills. 
Under the rules, opening statements are limited to the Chairman 
and Ranking Member. However, I ask unanimous consent to include 
any other member's opening statement in the hearing record if 
submitted to the Clerk by the close of business today.
    And hearing no objections, that will be ordered.
    Today's bills will include H.R. 3286 by Mr. Daines, to 
protect States and Open National Parks Act; H.R. 3294 by Mr. 
Young, the State-Run Federal Lands Act; H.R. 3311 by Mr. 
Stewart, the PARC Act provides for continuous operation of 
parks by States during a Federal shutdown; H.R. 915 by Mr. 
Kennedy, to authorize the Peace Corps Commemorative Foundation 
to establish a commemorative work; and H.R. 3492 by Mrs. 
Lummis, the River Paddling Protection Act.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. If I may begin, before we call the first panel, 
in 1989, the Berlin Wall fell down, and the entire world 
realized that large, centralized, bureaucratic entities do not 
work. They do not move us forward.
    Everyone has understood that. The Entrepreneurial work has 
learned that as large companies were succeeded by lean and 
aggressive companies to provide product. Eastern Europe 
understood it. They all recognized the free market principles 
were the best. Everyone understood that, except for Washington, 
DC, where most of our agencies intended to become more 
centralized, more bureaucratic in an effort to try and enlarge 
their particular role.
    Throughout this year we have had hearings which have 
illustrated that leaner, smaller entities are much more 
effective. We had a hearing that illustrated how the State of 
Idaho and Native American tribes in the Northwest were far more 
effective in their management of forestlands than the Federal 
Government was.
    We had testimony in here on how the National Park Service 
has harmed individuals in Washington by prohibiting church 
groups because they are too loud; in Nevada in prohibiting 
individuals for searching for the remains of their dead 
relatives; and we have had a hearing of individuals from New 
Mexico to Montana and all points in between of how they had 
been bullied, and that was the proper word, and harassed by the 
Interior Department.
    In the 1990s, without legislation, the Interior Department 
was able during that shutdown to open parks, accept money from 
States, and then return those funds. We are going to ask why 
that should not be the case again today with certain bills, and 
why if the Park Service is now claiming that they have already 
spent $1.5 million of those donations from the States and they 
now have their CR funding in place, which should supplant that 
original $1.5 million, what are they doing with the extra cash 
laying around here?
    If obviously this Park Service and the Interior Department 
find it difficult to solve these kinds of initiatives on their 
own, Congress needs to step in with a template for future 
situations that may or may not develop.
    We will also hear bills that simply tell us once again this 
large, centralized, bureaucratic entity is not listening to 
people; that the experts in these agencies have become large 
and lethargic and simply unaccountable. They have ignored what 
people want to do on public land and have forgotten the idea 
that a national park that is not visited is of no value 
whatsoever to anyone. Tradition has trumped responsibility.
    We will have also shown in the shutdown that States are 
capable and competent to continue on. In my State, the Sand 
Flats recreation area was an area the Bureau of Land Management 
could not and would not regulate until a near riot broke out. 
Since that time, with the statutory law already on the books, 
they have contracted with the county so that that recreation 
area is now run and managed in an effective and efficient way 
and at a profit.
    Coral Pink Sand Dunes or something close to that in 
southern Utah is Federal land managed by the State and has been 
recognized by national publications as one of the most 
efficient and effective parks in the Nation. As one of our 
witnesses will testify, many Eastern States have a significant 
portion of their State already owned, managed, and controlled 
by the State itself. They do so efficiently, and at the same 
time want to deny Western States for that same kind of 
opportunity.
    This kind of Soviet era mindset has become unfortunately 
the norm. About a decade ago there was another publication that 
I think was entitled ``Outside its Time,'' and the question has 
to be what do we do with agencies who are simply outside their 
time. There have to be some new concepts we are talking about.
    And the last bill we will talk about is specifically 
allowing those States, those lower entities, those leaner 
management associations to take over and provide those types of 
services. We are talking about new ideas going forward to us, 
which should be based on the lessons we should have learned in 
the past. The world has learned those lessons. The free market 
system has learned those lessons. Government in Washington has 
simply not learned the lessons. In fact, some of the testimony 
that we will hear today is outstanding in its degree of 
arrogance.
    We also have a bill, and we will start with that one first, 
that deals with the commemorative effort to recognize the Peace 
Corps, which will not, as I understand, be on the Mall, but 
will be using the leftover mesh tapestries from the Eisenhower 
Memorial to try and build it by itself.
    [Laughter.]
    [The prepared statement of Mr. Bishop follows:]
 Prepared Statement of the Hon. Rob Bishop, Chairman, Subcommittee on 
               Public Lands and Environmental Regulation
    Today we will consider several pieces of legislation that will 
empower the States against the whims of Federal land managers. During 
the lapse of appropriations in October, several States offered to pick 
up the tab to keep popular national parks open. Understandably, States 
were concerned that the closures would have damaging impacts to local 
businesses and would prevent the American public from enjoying their 
parks--in many cases, unnecessarily. However, almost as soon as these 
offers were made, the Obama administration rejected them.
    When States inquired why their Federal partners did not want the 
funds to open National Parks, the answer was about as clear as 
heathcare.gov. The responses varied from ``we can't,'' to ``it wouldn't 
be appropriate,'' to ``it's too complicated.''
    It didn't seem to matter that the Park Service accepted their 
donations in the previous shutdown and even took third party funds just 
this year to keep a visitor center open. So what was different about 
this shutdown? I don't understand the hostility toward cooperation with 
the States.
    After 10 days, the administration finally relented and accepted 
donations from the States, but with the strict understanding that the 
Park Service would not commit to making reimbursements and the States 
had to fork up not just enough money to keep the gates open, but a much 
higher rate that would fund a park completely.
    I'd like to hear from the Park Service why they are sitting on the 
States' money even though the continuing resolution funded them from 
the start of the shutdown. Do they think the States' money is some sort 
of bonus? This is the sort of accountability, or lack of accountability 
that makes Mr. Young's legislation timely. It is beyond time for us to 
explore ways in which State governments can take a more active and 
invested role in improving the management of the Federal lands within 
its borders.

                                 ______
                                 

    Mr. Bishop. With that, I wish to yield to the Ranking 
Member because (a) he is one of the most thoughtful and nicest 
guys we have on this panel and (b) it is the rule. If it was 
not that, otherwise you would be----
    [Laughter.]
    Mr. Bishop. With that I recognize Mr. Grijalva.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman.
    That is kind of cold on the tapestry thing though, you 
know.
    [Laughter.]
    Mr. Grijalva. I do want to thank you and the full Committee 
Chair and the Ranking Member of the full Committee for 
considering H.R. 915 today for a hearing and hopefully moving 
it rapidly to committee action. It has been a 5-year process 
and a wait, and we do it at a very appropriate time today, and 
I think it is a fitting tribute in many ways to the fine work 
the Peace Corps has done and to a legacy of public service and 
I think we need to acknowledge, and so thank you for that, Mr. 
Chairman.
    You know, the National Geographic channel has a show called 
``Doomsday Preppers,'' and it chronicles people who go to 
extreme preparation for cataclysmic events. Obviously it is 
extreme behavior that is always worthy of a reality show.
    Today I feel like we are bringing ``Doomsday Preppers'' to 
Capitol Hill. The bills before us today are variations of 
extreme behavior regarding the past and now the projected 
future government shutdowns and our beloved National Park 
system. I welcome the discussion about the value of public 
lands.
    I am glad to see the Majority acknowledge that our national 
park and wildlife areas are economic engines in our rural 
communities and to their economies, but like so many of the 
Majority's bills considered by this committee, the legislation 
we will discuss today takes those shared values and twists them 
into divisive partisan extremes.
    First I want to address the legislation H.R. 3286. During 
this irresponsible Majority-led government shutdown, my 
colleagues on the other side must have had an epiphany. Guess 
what. National parks are part of the Federal Government, and 
when you shut down the government, you also shut down the 
parks.
    And guess what. Americans love their parks, and they gave 
those responsible for the shutdown more than an earful. When 
Secretary Jewell allowed States to open national parks, she 
made it pretty clear--there was no guarantee that these States 
would ever get reimbursed. Governors of States who signed these 
donation agreements knew they would need to come to a cash-
strapped Congress and argue that the Federal Government should 
cut their State a check.
    What troubled me about the agreements and what troubles me 
today is that the States want to have their cake and eat it 
too. Both the Utah legislature and the Arizona legislature 
passed legislation requiring the Federal Government to turn 
over Federal lands to the State. Governor Herbert signed the 
legislation. Governor Brewer did not, citing correctly concerns 
with constitutional issues.
    From what I can piece together, the State of Utah has 
already dedicated at least $2 million to implementing that 
legislation, H.R. 148, which is more than they are asking for 
today.
    If that is not enough, we have another bill that prepares 
for perhaps another future Majority-led shutdown. H.R. 3311 
would automatically allow States to take over national parks if 
there is another shutdown.
    Then, the icing on the cake is H.R. 3294. This legislation 
just turns over control of the lands. It not only turns over 
control of the lands, but treats Uncle Sam like a sucker. 
First, the bill would allow State law to overrule Federal 
statute.
    Second, it does not appear that the State assumes any 
liability for Federal lands. The States are not required to 
waive their sovereign immunity. So the States would take over 
control of our Federal lands, but the Federal Government would 
be on the financial and legal hook if something were to go 
wrong.
    Finally, the Federal Government has limited recourse to 
take back control of the lands if the States are poorly 
managing their assets. On the other hand, States are given 
authority to end any agreement if they no longer find it 
beneficial.
    From what I can tell today this hearing is about creating 
cover for Members who finally felt the sting from voters upset 
that their views were not being represented in Congress. A 
recent Hart Research Poll found that the American public had 
very negative feelings about the government shutdown.
    More relevant to today's hearing is that over half of the 
electorate believed that closing national parks and public 
lands during the shutdown was a big, major problem. As for 
members of this committee who advocate for turning over Federal 
lands to the State, the polls showed overwhelmingly that the 
forced shutdown of national parks served to remind people of 
the importance of their national parks and public lands.
    We should not be funneling Federal money to States that are 
actively trying to take over Federal lands. We should not be 
coming up with doomsday preparations for the next shutdown. And 
we certainly should not be turning over public lands, economic 
assets that belong to all Americans, to individual States, 
especially if the Federal Government will still hold all of the 
liability. This is not right. We should view this hearing like 
people view the Doomsday Preppers, for its entertainment value 
only.
    And with that I yield back.
    Mr. Bishop. Thank you.
    Now, we are going to deal with each of these bills, bill by 
bill. So we will start first with the Peace Corps commemorative 
work.
    We welcome Mr. Kennedy. We also welcome Mr. Petri. I am 
assuming you want to talk to this particular piece of 
legislation.
    I would also ask the committee for unanimous consent that 
anyone who is a presenter of a bill who wishes to stay for the 
rest of the hearing would be allowed to join us on the dais.
    Hearing no objection, we will do that. So you will have an 
open invitation to stay with us if you would like to. No one 
has yet taken me up on that offer, for which I am deeply hurt.
    I am also aware that even though we try and organize things 
so that we have the morning for committee work, there will be a 
vote on the Floor that will come roughly within 40, 50 minutes. 
So as much as I hate to have people just sit here and wait till 
votes are done, that may, indeed, be the case.
    With that I am going to call up the first panel to talk 
about that particular bill. I understand Ms. Tsongas wishes to 
introduce the sponsor of the bill, and I will recognize you for 
that.
    Ms. Tsongas. Yes. It is my honor to be here to introduce my 
newest colleague from Massachusetts, although we are soon to be 
joined by yet another who has gained a seat held by our 
longstanding Ranking Member here, Mr. Markey. But it has been 
my honor to serve with Representative Kennedy, and I very much 
appreciate the legislation that he is introducing today and I 
am strongly supportive of it.
    To give you a sense of history, my husband Paul was in the 
first group that went to Ethiopia after the Peace Corps was 
formed. My daughter Ashley went to Madagascar in early 2000, 
and their experiences changed their lives.
    So, yes, we have had over 200,000 Peace Corps volunteers 
make their way into the developing nations and have added great 
value, and I think increased our moral standing as a result of 
it, but it is no denying that it also changes the lives of 
those who serve, who come back to seek to find many ways to 
contribute to our country.
    And I know that is the case for Representative Kennedy, and 
I introduce you.
    Mr. Bishop. Mr. Kennedy, you are recognized for 5 minutes.

 STATEMENT OF THE HON. JOSEPH P. KENNEDY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Kennedy. Thank you very much, Mr. Chairman. I want to 
thank, Congressman Tsongas, for the extraordinary introduction.
    I want to thank the Ranking Member and the Ranking Member 
of the full Committee as well and my colleagues for making the 
time for me this morning and for this bill this morning. I 
cannot promise that it is going to be as entertaining as maybe 
you had hoped or perhaps certainly not speaking of the doomsday 
scenarios that we might be envisioning, but nevertheless, an 
important piece of legislation in my mind.
    I also want to thank Congressman Petri for his 
extraordinary history of service, a former fellow Peace Corps 
volunteer, and his dedication to public service throughout his 
career.
    I think we might be joined by some other Peace Corps 
brethren at some point over the course of the hearing. 
Congressman Farr, Congressman Honda and Congressman Garamendi, 
I know also expressed their interest and they might try to stop 
by.
    H.R. 915, otherwise known as the Peace Corps Commemoration 
Act, is a bipartisan piece of legislation that seeks to 
authorize to erect a small commemorative here in our Nation's 
Capitol in honor of the Peace Corps. The modest memorial will 
be funded completely through private contributions and require 
no taxpayer funds.
    I appear before this committee today as 1 of over 210,000 
return Peace Corps volunteers who have served collectively in 
139 different countries across the globe for the past 52 years. 
I think like many of my fellow volunteers trying to find the 
right words to sum up over 27 months of service is always 
difficult, and I will spare you the long stories, but I hoped 
to share a brief one with all of you that, I think, illustrated 
my time and the effect it had on me.
    About a year into my service in the Dominican Republic, I 
was on a bus, kind of a larger minivan called a ``guagua'' on 
the way back to the capital, Santa Domingo, to have some 
meetings at our Peace Corps office. The minivan was meant for 
about 8 or 10 and there were probably about 18 people in it. I 
was in the second to last row with a backpack on my lap, and I 
got a tap on my shoulder. The gentleman behind me, an older 
gentleman, asked, [speaking in foreign language], inquiring if 
I was a Peace Corps volunteer. Apparently I did not blend in 
quite as well as I had hoped.
    I said yes, and he went on to tell me that decades before 
when he was growing up, he lived in a small village on the 
outskirts of Santa Domingo in the mountains that did not have 
access to running water until a Peace Corps volunteer arrived, 
and he with the community helped construct a set of pipes to 
bring drinkable water to the village to save them hours of 
treks each way every day.
    Without ever asking my name or offering his, he then 
thanked me not for my work, but for the work that other 
volunteer had done all of those decades before whom as a little 
boy he never got the opportunity to say thank you to.
    A couple moments later, he got off the bus and I never saw 
him again. That to me is what I believe Peace Corps is all 
about, not about the accomplishments of any one person or 
volunteer, but about the way the combined contributions of 
service comes together to tell a story of a country that is at 
its very best version of itself, a country that might be an 
example and a beacon for the rest of the world.
    Tomorrow this country remembers a young American President 
that called a Nation to serve, a constant dreamer with a 
distinct Boston accent who put his faith in a country that at 
the time was struggling to keep faith in itself. In spreading a 
missive of service and citizenship, President John F. Kennedy 
moved a generation of civil soldiers to get off the sidelines 
and put their talent to work for this Nation. Today you can 
find those men and women in the Peace Corps, in our Armed 
Forces, in a soup kitchen in Chicago, a community health center 
in Georgia, and a legal aid clinic in California. You can find 
them right here in the halls of Congress, a generation inspired 
to change their country by a President who knew that they 
could.
    But as the years pass, the distance will grow between the 
current day and those that bore witness to that time in our 
history. So we will have to work harder to remember not just 
President Kennedy's individual accomplishments as we do any 
leader of our great Nation, but the faith and the fearlessness 
that he brought to a people who were in need of someone to 
cheer them on, and that unshakable belief that he held that if 
we could export the fruits of our labor and the fruits of our 
land, then we could surely export the most fundamental and 
precious commodity of all, our values.
    That is the conviction at the very heart of the Peace Corps 
and the legacy that this legislation hopes to help commemorate 
in its own simple and modest way, not the achievements of one 
man, but the potential of a people who are challenged to change 
the world.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Bishop. Thank you.
    Mr. Petri, you are recognized for 5 minutes.

  STATEMENT OF THE HON. THOMAS E. PETRI, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Mr. Petri. Well, I will not take the full 5 minutes, but I 
am here to demonstrate broad support for my colleague, Joe 
Kennedy's bill, H.R. 915.
    I was in the Peace Corps. I actually would have been in 
Paul Tsongas' group but decided to go to law school, and then 
was in Somalia. When I was there, we were taught that we were 
representing the American people, not necessarily the American 
Government, and I think a memorial to mark some 50 years of 
service by our fellow Americans that is paid by voluntary 
contributions is an appropriate indication of the public 
support for the volunteers who are representing them in many 
different societies all around the world.
    It has always been my hope over time, as you had indicated, 
that rather than it being sort of a bureaucratic thing that 
over time it could evolve to being supported by, and it is 
gradually happening, by voluntary contributions and support 
rather than necessarily by being a government-centered 
institution. We are nowhere near there yet, but institutions 
have been developing that support individual volunteers as they 
do their efforts all around the world, and I think my other 
colleagues will testify to the impact the Peace Corps had on 
them as individuals and actually their ability to communicate 
our role in the world as a result of that experience.
    So I strongly urge that this be dealt with in the spirit in 
which it is offered, which is as a legitimate memorial and 
commemorative effort rather than any sort of partisan football 
and urge that the committee give it favorable consideration.
    Mr. Bishop. Thank you, Mr. Petri.
    I notice that Mr. Farr has joined us here. Mr. Farr, you 
came right on time. You are recognized for 5 minutes on this 
bill.

 STATEMENT OF THE HON. SAM FARR, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Farr. Thank you very much, Mr. Chairman and members.
    I am very excited about this bill, and I think it is an 
appropriate historical moment to be considering it when you 
think that tomorrow is the 50th anniversary of John F. 
Kennedy's assassination.
    I will just tell you I was 22 years old. I was in graduate 
school studying Spanish because I already knew I wanted to be 
in the Peace Corps. I think when Kennedy made that call of, Ask 
not what your country can do for you, but what you can do for 
your country, it really stimulated young people all across 
America to thinking about service.
    I initially thought about military service. I wanted to fly 
planes but my eyesight would not allow me to do that. I think 
the flying of the planes was also related to Kennedy's call to, 
you know, compete with the Russians in space and that we were 
going to go into space.
    I thought about it later, and it was really interesting. I 
think the Peace Corps was sort of go where no person has never 
gone before because what we ended up doing is sending these 
Americans to all the places of the world where nobody had ever 
seen anybody from this country, and certainly what I learned 
from my African friends. I went to South America as a Peace 
Corps volunteer and lived in a very poor barrio. I lived in a 
place without water, without lights. I grew up in Carmel, 
California. We had plenty of water and lights. It was really 
kind of a cultural shock to do this, but, boy, what a change, 
what a change.
    My sister came to visit me and was killed, not killed, but 
she died from an accident in a hospital there because they did 
not have adequate medical devices to determine her head injury. 
It was just the most dramatic time, but most rewarding time in 
my life.
    And I just came back, going through a lot of anger and a 
lot of despair because my mother had also died of cancer while 
I was a Peace Corps volunteer, but it had nothing to do with 
being Peace Corps. The Peace Corps woke me up as to when I went 
going back, thinking about, well, why am I doing this. Why am I 
going back to this country?
    And it was, well, did you not realize that there were 
places in the world where you do not get access to health care 
and you do not get access to education and you do not have 
access to essentially a safe place to sleep? That is what the 
culture of poverty is about, and if you are going to bust the 
culture of poverty, you are going to do it through trying to 
empower people to provide education for themselves, provide, 
you know, access issues, all of the things here you and I 
joined Congress to do, why we are in public service today.
    So I think what is interesting about this moment, and I 
think we are going to begin reflecting on it is this call to 
service. You all answered that call, and I want to thank you 
for being in public service, and I want to thank all of those 
in service, whether it is the military or Peace Corps or all of 
the War on Poverty, the domestic programs we have.
    And this bill just allows us to sort of rethink that at a 
time when I think it is really important that our Nation 
recognize this kind of service, and I want to say that I just 
looked up the number of Peace Corps volunteers that you 
represent just on this subcommittee alone. It is 422 people 
serving around the world that you as Members of Congress 
represent, and I think the largest is Congressman Daines, but 
also Jared Huffman and Peter DeFazio represent an awful lot, 
you know, over 35 Peace Corps volunteers.
    So I ask of you as a colleague, as it is with Dom Petri, 
and we have become really close friends because of our common 
backgrounds of being young folks going overseas, is that we 
pass this bill in the spirit of a call for service and a 
recognition that that service is important to this country and 
to the world.
    Thank you very much.
    Mr. Bishop. Thank you.
    I appreciate our colleagues joining us. Once again, you all 
three have the invitation to stay with us if you wish, though I 
realize that you have a busy schedule. So I will understand if 
you just blow me off like that and go away.
    Unless there is a specific question that any member has for 
these witnesses, then we thank you for your testimony and 
appreciate your time being here.
    This concludes our discussion on H.R. 915.
    We are now going to go and take two bills. So I want to do 
H.R. 3286 and H.R. 3311 together. Both of them deal with park 
lands and potential shutdown.
    I would invite Bruce Sheaffer, who is the Comptroller from 
the National Park Service in the Interior Department, if he 
would come forward, and also I would ask Lieutenant Governor 
Spencer Cox from the State of Utah, newly sworn in as 
lieutenant Governor. We welcome you here to your first dealing 
with Congress. You will find that Utah is much better than us.
    And also Matt Sease--did I pronounce that properly?--the 
Treasurer of the Montana Lodging and Hospitality Association.
    If they would come forward with this next panel.
    Mr. Sheaffer, what I would ask you to do, and especially as 
we are running out of time, could I ask you if you would give 
your testimony to cover not only these two bills, but the 
Lummis and the Young bills as well, but if I would then ask you 
to stay at the dais so that you could be available for 
questions on the other bills as they come up?
    Mr. Sheaffer. Yes.
    Mr. Bishop. All right. You are now recognized for 5 
minutes.
    For those of you who have never been here before, the timer 
is in front of you. The green light means you are free to go. 
Yellow light means you have got a minute left. At the red 
light, I wish you to stop in midsentence if possible.
    Mr. Sheaffer.

    STATEMENT OF BRUCE SHEAFFER, COMPTROLLER, NATIONAL PARK 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Sheaffer. Mr. Chairman, thank you for the opportunity 
to present the Department of the Interior's views on the four 
bills under immediate consideration.
    I have a full statement for the record and will summarize 
my view here or the Department's views here in a quick message.
    The Department will not be presenting its views today on 
the fifth bill, as I am not sure if it is even under 
consideration at this time, regarding Wyoming paddle use issue. 
Protecting Parks, 3286 directs the Secretary of the Treasury to 
reimburse States for funds expended for activities conducted 
during the government shutdown that were necessary to operate a 
national park.
    Under the terms of the agreements that funded National Park 
Service personnel to reopen specific national parks, the States 
donated to the National Park Service lump sum payments in 
advance to cover the cost of operating the parks for a specific 
number of days. When Congress passed a continuing resolution 
providing appropriations for Fiscal Year 2014, the National 
Park Service was able to stop charging employees' time against 
that account and has returned the unused donated funds.
    The Park Service immediately began the process of 
reimbursing, and we did so very quickly, a total of $1.6 
million as expended. However, the National Park Service does 
not have the authority to reimburse States for the portion of 
funds that was expended. An act of Congress is needed for that. 
H.R. 3286 would provide that authority.
    We estimate this legislation would cost the U.S. Treasury 
approximately $2 million.
    H.R. 3311, Access and Retain Continuity, the other bill you 
would like to consider at this time, would require the 
Secretary of the Interior to enter into agreements with States 
to allow them to conduct Federal Government activities that are 
necessary to operate facilities or programs that have a direct 
economic impact on tourism, mining, timber, and general 
transportation.
    The agreements would be for activities a State conducts 
during a time when the Federal Government was not conducting 
the activity due to a partial shutdown resulting from lapse in 
appropriations. The Department strongly opposes this bill.
    We have a great deal of sympathy for businesses and 
communities that experience a disruption of activity and loss 
of revenue during last month's government shutdown and that 
stand to lose more if there is another funding lapse.
    However, rather than only protecting certain sectors of the 
economy from the effects of a shutdown of this nature, it is 
the position of the Administration that Congress should protect 
all sectors of the economy by enacting appropriations on time 
so as to avoid any future shutdowns.
    In addition, the proposed legislation would be a poor use 
of departmental resources to prepare what would be an enormous 
number of agreements with State governments just for the 
possibility that a funding lapse might again occur.
    Furthermore, similar to H.R. 3294, this bill would 
undermine the longstanding framework established by Congress 
for the management of Federal lands under the stewardship of 
the Department of the Interior by aligning States to carry out 
activities that are inherently Federal in nature.
    [The prepared statement of Mr. Sheaffer follows:]
  Prepared Statement of C. Bruce Sheaffer, Comptroller, National Park 
                Service, U.S. Department of the Interior
   concerning h.r. 3286, to direct the secretary of the treasury to 
reimburse states that use state funds to operate national parks during 
        the federal government shutdown, and for other purposes
    Mr. Chairman, thank you for the opportunity to appear before you 
today to provide the Department of the Interior's views on H.R. 3286, a 
bill to direct the Secretary of the Treasury to reimburse States that 
use State funds to operate National Parks during the Federal Government 
shutdown, and for other purposes.
    H.R. 3286 directs the Secretary of the Treasury to reimburse any 
State for funds expended for an activity conducted in fiscal year 2014 
during the government shutdown that was necessary to operate a national 
park located within the State. Reimbursement would be provided only for 
activities authorized under Federal law and conducted in a manner and 
at approximately the same level in scope and cost as they would have 
been conducted by the Federal Government.
    From October 1 through October 16, 2013, the National Park Service, 
along with other bureaus and offices of the Department of the Interior, 
implemented a shutdown of our activities due to a lapse in 
appropriations. Under the closure determination and notice issued by 
the Director of the National Park Service, and consistent with 
applicable law, the National Park Service closed and secured all 401 
national parks across the country, suspended all activities, and 
furloughed more than 20,000 National Park Service employees.
    In response to the economic impacts that the park closures were 
having on many communities and local businesses, as the shutdown 
entered a second week, Secretary Jewell announced that the Department 
would consider agreements with Governors who indicated an interest and 
ability to fully fund National Park Service personnel to reopen 
specified national parks in their States. Six States--Arizona, 
Colorado, New York, South Dakota, Tennessee, and Utah--signed donation 
agreements with the Department to open a total of 13 park units that 
are all significant contributors to tourism in the States where they 
are located. State donations through these agreements totaled 
approximately $3.6 million. Once these agreements were signed and the 
funds were transferred, the National Park Service reopened the national 
parks in accordance with the specific agreements.
    Under the terms of the agreements, the States donated to the 
National Park Service lump sum payments in advance to cover the cost of 
operating the parks for a specific number of days. The employees who 
returned to work in these parks during the shutdown were paid for these 
days out of the funds donated by the States. When Congress passed a 
continuing resolution providing appropriations for the first 3\1/2\ 
months of fiscal year 2014 on October 16, the National Park Service was 
able to resume operations on October 17 and stop charging employee time 
against the funds that had been donated by the States.
    Once the shutdown ended, the National Park Service immediately 
began the process of reimbursing the six States for the portion of 
donated funding that was not expended to operate the parks, which 
totaled approximately $1.6 million. However, the National Park Service 
does not have the authority to reimburse States for the portion of 
funding that was expended; an act of Congress is needed for that. H.R. 
3286 would provide that authority.
    We estimate this legislation would cost the U.S. Treasury 
approximately $2 million and would be subject to Pay-As-You-Go 
requirements.
    Mr. Chairman, this concludes my testimony, and I would be happy to 
answer any questions you or other members of the subcommittee may have.
concerning h.r. 3294, to establish a streamlined process through which 
 a state may claim authority over and responsibility for management of 
 federal lands located in the state without claiming ownership of the 
                      land, and for other purposes
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide the views of the Department on H.R. 3294, a bill 
to establish a streamlined process through which a State may claim 
authority over and responsibility for management of Federal lands 
located in the State without claiming ownership of the land, and for 
other purposes.
    The Department strongly opposes H.R. 3294. This bill would 
seriously undermine the longstanding framework established by Congress 
for the management of Federal lands under the stewardship of the 
National Park Service, the Bureau of Land Management, the U.S. Fish and 
Wildlife Service, and the U.S. Forest Service. The lands managed by 
these bureaus belong to all Americans, not just the residents of the 
States in which they are located, and therefore should continue to be 
managed in accordance with laws established by the Federal Government, 
not individual State governments.
    H.R. 3294 would allow a State to submit a petition to enter into a 
cooperative agreement with the Secretary of the Interior or Secretary 
of Agriculture (Secretary) for purposes of managing certain qualifying 
Federal lands located in the State. The bill would require the 
Secretary to approve or deny such a petition not later than 90 days 
after the date on which the Secretary receives the petition if the 
Secretary determines that the petition meets certain criteria 
identified in the bill. The bill provides conditions for the submittal 
of a petition by the State, and for the denial of a petition by the 
Secretary.
    The bill provides that State laws shall supersede Federal laws on 
the qualifying Federal lands administered by a State under a 
cooperative agreement to the extent that such laws are more restrictive 
than the corresponding Federal laws. The bill also provides that the 
United States shall retain all right, title, and interest in and to 
such lands, and provides for conditions under which a cooperative 
agreement authorized under this bill shall terminate.
    The Department has a number of concerns with H.R. 3294. Our 
fundamental concern is that the bill would erode the idea of a Federal 
system of public lands, and the system of laws, regulations, and 
policies that govern the management of those lands. The management of 
Federal lands involves the exercise of inherently Federal functions and 
decisionmaking by land managers to make decisions for the long-term 
benefit of all Americans. State governments have very different 
responsibilities for the management of State lands than the Federal 
Government, and are accountable only to residents within their 
particular States. Accordingly, each State would be under strong 
pressure to manage according to local rather than the national 
interest.
    H.R. 3294 would allow a State to take over the administration of 
lands that are currently managed by four separate bureaus with 
different missions. Each of these land management bureaus is governed 
by different laws, regulations, and policies, and they are responsible 
for managing resources for different purposes. It would be virtually 
impossible for a State to fully carry out each of the individual 
missions of these bureaus, and to provide for the long-term management 
of these Federal resources for the benefit of all Americans.
    For example, many National Wildlife Refuges were established as 
stopover and wintering habitat for migrating birds. They are managed as 
a system so that the location and timing of food and cover are 
available to waterfowl and other migratory birds where and when they 
need it--during spring and fall migrations and breeding and wintering 
seasons. Ensuring the coordinated management of these migratory species 
across multiple States and even international borders is most 
effectively coordinated by the Federal Government.
    This bill would not only compromise the statutory protection that 
Congress has provided to these lands, but may also cause legal 
confusion for Federal agencies, partners, and stakeholders. State 
management of Federal lands would eliminate consistency and 
predictability for companies and partners that invest resources in 
long-term or large-scale projects on Federal lands, or that rely on 
Federal laws that authorize partnerships, business services and uses 
related to these lands, such as lease-holders, miners, ranchers, right-
of-way holders, commercial guiding operations, concessions, cooperative 
associations, and non-profit educational institutions. It may also 
introduce a new risk of potential liability for the Federal Government, 
States, and others conducting activities on Federal lands during the 
interim.
    While the Department opposes being required to enter into 
agreements with States to manage Federal lands, we recognize that it is 
productive to have some discretionary authority to enter into 
agreements to share management responsibilities with States and 
localities, where it is appropriate. Land management agencies already 
have the necessary authority to enter into cooperative agreements with 
States to carry out legally authorized activities for a public purpose. 
In addition, other authorities exist that promote shared 
responsibilities.
    The National Park Service, for example, has authority to enter into 
cooperative management agreements with States where the sharing of 
resources provides for more effective and efficient administration of 
the park lands. But the law that permits cooperative management 
agreements for park lands specifically prohibits the transfer of 
administration responsibilities for National Park System units to other 
entities. Similarly, the U.S. Fish and Wildlife Service has authority 
to enter into agreements with States under the Fish and Wildlife 
Coordination Act of 1956, but is not authorized under the National 
Wildlife Refuge System Administration Act to transfer administration of 
the Refuge System. And, the Bureau of Land Management also has broad 
authority, under the Federal Land Policy and Management Act, to enter 
into cooperative agreements related to the management, protection, and 
development of public lands. The Bureau of Land Management has a 
variety of agreements with State and local law enforcement agencies, 
including contracting with a State law enforcement agency to provide 
dispatch services and supplemental patrols on public lands during high-
use periods.
    In addition, there may be individual cases where it makes sense to 
have a cooperative management arrangement between a Federal land 
management agency and a State. For example, the city of Rocks National 
Reserve, which is federally owned, is cooperatively managed by the 
National Park Service and the Idaho Department of Parks and Recreation. 
That management arrangement was authorized by Congress specifically for 
that site. The Department believes these types of management 
arrangements should continue to be considered on a case-by-case basis.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or any other members of the subcommittee may 
have.
concerning h.r. 3311, to direct the secretary of the interior to enter 
into agreements with states to allow continued operation of facilities 
and programs that have been determined to have a direct economic impact 
on tourism, mining, timber, or general transportation in the state and 
 which otherwise would cease operating, in whole or in part, during a 
     federal government shutdown that is the result of a lapse in 
                 appropriations, and for other purposes
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide the views of the Department on H.R. 3311, a bill 
to direct the Secretary of the Interior to enter into agreements with 
States to allow continued operation of facilities and programs that 
have been determined to have a direct economic impact on tourism, 
mining, timber, or general transportation in the State and which would 
otherwise cease operating, in whole or in part, during a Federal 
Government shutdown that is the result of a lapse in appropriations, 
and for other purposes.
    The Department strongly opposes H.R. 3311. We have a great deal of 
sympathy for the businesses and communities that experienced a 
disruption of activity and loss of revenue during last month's 
government shutdown and that stand to lose more if there is another 
funding lapse in the future. However, rather than only protecting 
certain narrow sectors of the economy (and only the portions of those 
sectors associated with Department of the Interior activities) from the 
effects of a government shutdown in the future, Congress should protect 
all sectors of the economy by enacting appropriations on time, so as to 
avoid any future shutdowns. In addition, the proposed legislation would 
be a poor use of already strained Departmental resources to prepare 
what could be an enormous number of different types of agreements with 
State governments, just for the possibility that a funding lapse might 
occur in the future. Furthermore, this bill would seriously undermine 
the longstanding framework established by Congress for the management 
of Federal lands under the stewardship of the Department of the 
Interior by allowing States to carry out activities that are inherently 
Federal in nature.
    H.R. 3311 would require the Secretary of the Interior to enter into 
agreements with States to provide for those States to conduct Federal 
Government activities that are necessary to operate facilities or 
programs that have a direct economic impact on tourism, mining, timber, 
or general transportation. The agreements would be for activities a 
State conducts during a time when the Federal Government was not 
conducting the activity due to a partial shutdown resulting from a 
lapse in appropriations. The bill sets out a process for States to 
petition the Secretary to enter into an agreement and for an agreement 
to be approved whether a Federal Government shutdown appears imminent 
or not. It also requires the Secretary to reimburse a State for 
activities conducted by the State within 90 days after the funds are 
made available to the Secretary.
    The lapse in government funding that resulted in a partial shutdown 
of the Federal Government from October 1 through October 16, 2013, was 
the first such shutdown to occur in 17 years. As the shutdown entered 
its second week, the National Park Service entered into donation 
agreements with six States to accept from those States the donation of 
funds necessary to allow the National Park Service to temporarily 
reopen 13 national park units. In these cases, the States were 
concerned enough about the loss of economic activity associated with 
certain national parks to use their own funds to alleviate the impact 
of park closures.
    These agreements did help a select number of businesses and 
communities. However, even as we appreciated being able to help those 
few businesses and communities around the parks that were reopened, we 
recognized the unfairness of the situation across the country. These 
agreements did not begin to address the impacts of the closure of all 
401 national park units, let alone all of the other activities managed 
by the Department or the Federal Government. These agreements should 
not be held up as a model of how the Federal Government should do 
business. They were designed to be temporary, emergency measures for 
some individual situations, and would not necessarily work for other 
Departmental activities associated with the four industries identified 
by H.R. 3311, nor could they come close to ameliorating the many 
negative impacts of a shutdown. Such agreements are not an appropriate 
solution for allowing appropriations to lapse and causing a shutdown.
    Additionally, the types of temporary, emergency measures 
contemplated by H.R. 3311 would introduce further uncertainty for 
businesses that rely on Federal land activities, as the entity 
responsible for managing the lands could change depending on the status 
of appropriations. Furthermore, the variety of activities which occur 
on these Federal lands, including mining and timber harvest, would be 
particularly difficult to manage on an interim, individual basis. It 
may also introduce a new risk of potential liability for the Federal 
Government, States, and others conducting activities on Federal lands 
during the interim.
    Finally, H.R. 3311 would allow States to carry out activities, 
including the operation of facilities or programs, which would 
otherwise be conducted by the Federal Government. The management of 
Federal lands involves the exercise of inherently Federal functions and 
decisionmaking by land managers for the long-term benefit of all 
Americans. State governments have very different responsibilities for 
the management of State lands than the Federal Government, and are 
accountable only to residents within their particular States. 
Accordingly, each State would be under strong pressure to manage 
according to local rather than the national interest.
    The recent Federal Government shutdown had terrible impacts for 
American citizens, businesses, communities, States and the economy as a 
whole. These impacts are summarized in the report released by the 
Office of Management and Budget this month entitled ``Impacts and Costs 
of the October 2013 Federal Government Shutdown'' (November 2013). The 
report makes clear that the economic effects of the shutdown were felt 
far beyond the tourism, mining, timber, and transportation sectors. Any 
change in law to try to address the impacts of a shutdown on these 
particular industries, or on any sectors of the economy, in advance of 
a future Federal Government shutdown, is not a responsible alternative 
to simply making the political commitment to provide appropriations for 
all the vital functions the Federal Government performs.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or any other members of the subcommittee may 
have.
concerning h.r. 915, a bill to authorize the peace corps commemorative 
    foundation to establish a commemorative work in the district of 
           columbia and its environs, and for other purposes
    Mr. Chairman, thank you for the opportunity to H.R. 915, a bill to 
authorize the Peace Corps Commemorative Foundation to establish a 
commemorative work in the District of Columbia and environs, and for 
other purposes.
    The Department supports H.R. 915, which would authorize a memorial 
commemorating the formation of the Peace Corps and the ideals of world 
peace and friendship upon which the Peace Corps was founded. This 
proposal provides that no Federal funds be used for establishing the 
memorial.
    Although this proposal does not seek any exceptions to the 
Commemorative Works Act (CWA), it should be noted that this proposal to 
honor the ideals upon which the Peace Corps was founded does not fit 
the typical mold for commemoration. The concept of establishing a 
memorial to ``ideals'' is not explicitly described in the CWA. When 
testifying on H.R. 4195, a similar bill introduced in the 111th 
Congress, we identified our concerns that a bill such as that could set 
an unwelcome precedent for any and all future concepts identified only 
as ``ideals,'' resulting in an untenable influx of memorial proposals. 
However, there is precedent for such commemoration: specifically, the 
National Peace Garden, which Congress authorized in 1987, and the 
Memorial to Japanese American Patriotism in World War II, which was 
authorized in 1992.
    Our support for this proposal is based upon our understanding that 
this memorial will recognize the establishment of the Peace Corps and 
the significance of the ideals it exemplifies, not the organization's 
members. The CWA precludes a memorial to members of the Peace Corps as 
the commemoration of groups may not be authorized until after the 25th 
anniversary of the death of the last surviving member of a group.
    The Department notes that H.R. 915 reflects suggestions made to 
strengthen the language in this proposal as recommended in our 
testimony on H.R. 4195 in the 111th Congress, and by the National 
Capital Memorial Advisory Commission (NCMAC) at its meeting on April 
21, 2010. The National Capital Memorial Advisory Commission has not 
reviewed H.R. 915, but in their June 23, 2011 review of the 112th 
Congress' H.R. 854, which is almost identical to this bill, they 
expressed support for the concept of a memorial to the ideals of the 
Peace Corps. NCMAC found that the provisions of H.R. 854 connect the 
ideals to the exceptional aspects of American character that are 
exhibited in the ideals of the Peace Corps. We share the Commission's 
support for the idea of commemorating volunteerism and international 
cooperation as worthy ideals and practices of the Peace Corps.
    That concludes my testimony, Mr. Chairman. I would be pleased to 
respond to any questions from you and members of the committee.

                                 ______
                                 

    Mr. Bishop. I thank you.
    And then once again, I would ask you if you would stay 
there at the panel through all the succeeding bills we deal 
with.
    Let me go first and we will talk specifically about H.R. 
3311. So what I would like to do is recognize Mr. Stewart as 
the sponsor of that bill, then Lieutenant Governor Cox. You 
would have time after him, and then we will go to H.R. 3286. I 
will recognize Mr. Daines and then Mr. Sease.
    So Congressman Stewart.
    Mr. Stewart. Thank you, Chairman Bishop, for holding the 
hearing and for allowing us to participate.
    I am pleased to appear before your subcommittee to 
introduce H.R. 3311, ``To Provide Access and Retain Continuity 
Act,'' or the PARC Act as it has become known, and again, thank 
you for considering this legislation, and to the witnesses, 
thank you for participating as well.
    When the Federal Government shut down in October of this 
last year, it seemed as if the administration used all of the 
lessons, frankly, from years of Chicago land style politics to 
do what they could to make this shutdown as painful for as many 
people as possible. It is estimated that Utah tourism suffered 
something like $30 million losses due to the Federal shutdown.
    Now, tourism provides roughly 40 percent of the employment 
in southern Utah, which I happen to represent, and as a side 
note, I would recognize that the reason that it is such an 
important employer in that part of the State is--one of the 
primary reasons is due to the fact that the Federal Government 
has shut off nearly all access to the invaluable resources that 
are available in those lands.
    Because of this, businesses and communities were hard hit 
by the government shutdown. In Utah there are five national 
parks, seven national monuments, two national recreation areas, 
six national forests. In fact, 70 percent of my State is 
controlled by the Federal Government, as I am sure the 
lieutenant Governor may mention in his testimony.
    The State of Nevada is 84 percent controlled by the Federal 
Government. In Idaho, Alaska and Oregon, the Federal Government 
controls something like 50 percent. In California, Wyoming, 
Arizona and New Mexico, it is over 40 percent.
    Now, all of this is to say that if the administration wants 
to make a shutdown painfully felt, it is very easy for them to 
do that. In the West where there is so much Federal land, it is 
detrimental not only to tourism, but to other industries such 
as mining and timber and transportation and cattle production. 
All of them are impacted by this as well.
    This is not a situation that we welcome in the West. You 
know, to be very honest, we wish we controlled more of our 
land, such as they do in the East, but that is not the case. 
But whether you are from the West or the East, the recent 
Federal shutdown with its closure of public lands constitutes a 
loss of billions of dollars in business revenue around the 
Nation.
    And I have proposed the PARC Act to allow States, 
territories and even the District of Columbia to enter into 
agreements with the Department of the Interior to keep 
economically important Federal facilities open during a 
potential shutdown in the future.
    Now, I note that some have called this a doomsday scenario, 
but I think it is wise for us to prepare for an eventuality 
such as that. If we keep savings in our personal finances as 
families, that is not because we are doomsday. That is because 
we want to be prudent and careful, and I think this is a 
similar situation.
    These agreements would be in place and could not be altered 
as a result of just political vicissitudes, and they would 
allow for continued operation of public lands and for an avenue 
for which the government has reopened and States can be 
compensated for expenditures on behalf of the Federal 
Government.
    And finally, let me just end with this. If you love the 
national parks as I do and if you want to keep the national 
parks open as I do, and if you think it is a good idea to 
prepare for an uncertain future, if you want to protect small 
businesses and rural communities as I do, and then finally if 
you think it is a bad idea for the Federal Government to have 
such power over the States as I do, then this is a good bill. 
It does all of these things, and for that reason I ask for your 
support and I encourage its passage.
    And with that, Mr. Chairman, I would yield back my time.
    Mr. Bishop. Thank you.
    We would now like to turn to Lieutenant Governor Cox in the 
State of Utah and recognize you for 5 minutes to talk 
specifically about the Stewart bill.

  STATEMENT OF THE HON. SPENCER J. COX, LIEUTENANT GOVERNOR, 
                         STATE OF UTAH

    Mr. Cox. Thank you, Mr. Chair and Ranking Member, Mr. 
Grijalva. It is a pleasure to be here on behalf of the State of 
Utah. Governor Gary Herbert sends his apologies. He would 
prefer to be here but is otherwise engaged at the time.
    Congressman Stewart has very eloquently stated the position 
of the State of Utah, and I do not wish to tread upon his 
remarks in any way, but I would like to maybe pull back the 
curtain just a little bit if I could in the happenings that 
kind of led to this.
    During the shutdown, as has already been stated, the 
results were devastating for the small rural towns and cities 
surrounding our national parks, and we felt that very severely 
throughout the State. When we were reaching for solutions to 
that, Governor Herbert made a call to Secretary Jewell, and I 
really cannot state forcefully enough the importance of that 
personal relationship, two people who do not always see eye to 
eye, but have worked very diligently to have a personal 
relationship.
    So when that call was made, the Secretary was very willing 
to talk. I can tell you that at the end of the day this was on 
a Wednesday after the parks had been closed for several days. 
We were coming up on Columbus Day weekend, which is one of the 
biggest weekends in the fall time of our national parks, and we 
were very concerned about the economic devastation that was 
taking place.
    At the close of the day on Wednesday, we thought there was 
no way a deal could be done. On Thursday morning, Secretary 
Jewell called back and said, ``I think we can make this 
happen.'' By Thursday night, we had a deal in place. It was a 
real testament, again, to personal relationships. It was a 
testament to what can happen when we put aside our personal 
prejudices and work together. It was, I believe, a real 
triumphant example of leadership within a Red State and with 
Secretary Jewell.
    I am very pleased with the results of that as we have seen 
the positive effects of that effort. What this bill is 
attempting to do, I think, is just to lay the groundwork for 
what has already been done. It worked. We have proven it can 
work. It can be done. It makes sense. It is something that the 
American people, the citizens of my State would hope would 
happen in the future so that we do not run into this again: 
again, a $30 million loss to the economy of Utah.
    One business in particular estimates $2 million alone. We 
had several businesses that were literally on the verge of 
closing for the year, and some on the verge of bankruptcy.
    Now, during that negotiation, the initial negotiation was 
that the State would be paid back as soon as the government was 
reopened. We felt like that is what we were negotiating toward. 
We were told that that would happen, and then as things kind of 
wound down, we were told that the attorneys said that that was 
not possible because of the Anti-Deficiency Act, but that they 
fully expected that we would have no problem getting Congress 
to get us the money back when that was over.
    I realize the joke was on us, right? In fact, The Interior 
told us they would draft the language to make sure that that 
happened. So there was a real spirit of collaboration, and we 
sincerely hope that that spirit will continue forward.
    I know I appear to be speaking a little bit to 3286. That 
was not my intention, but again, the benefits of 3311, the 
bill, are that the next time we will not have to worry about 
getting paid back. That would be in statute. We would be able 
to make sure that that happened.
    I would just close with a little story, if I could. I had a 
young man that I was very close to who found himself in some 
financial trouble. He hesitantly asked me if I could help him, 
and I did that, told him not to worry about paying me back.
    A few months later he came with the money in hand. I said, 
``I told you not to worry about it.''
    He said, ``No.''
    And I said, ``Well, why?''
    And he said, ``Because it is the right thing to do.'' I 
know that may be asking a little too much of this Congress, but 
it is the right thing to do, and we would surely appreciate 
your support.
    Thank you, Mr. Chair. I yield back my time.
    [The prepared statement of Mr. Cox follows:]
Prepared Statement of Spencer J. Cox, Lieutenant Governor of the State 
                                of Utah
concerning h.r. 3311--providing access and retain continuity (parc) act
    Good morning, I am Spencer J. Cox, Lieutenant Governor of the great 
State of Utah. Thank you, Chairman Bishop and Ranking Member Grijalva, 
for holding this important hearing. I appreciate you inviting me to 
speak to you and members of this subcommittee regarding the ``Providing 
Access and Retain Continuity (PARC) Act''.
    Utah paid approximately $1.67 million ($166,572 per day) to operate 
Utah's national parks and monuments until the budget crisis was 
resolved. The intent of the State of Utah in allocating State funds for 
the operation of these Federal facilities was meant to be a temporary 
solution until the budget impasse was resolved and the funds could be 
repaid. The important principle is that when States agree to help in a 
time of need, they should be fully compensated for this assistance in a 
timely fashion.
    Utah's national parks and monuments were severely affected by the 
recent Federal government shutdown. These national treasures are 
estimated to add $100 million per month to Utah's economy. This money 
goes to support Utah's rural communities, like Moab, Hanksville, 
Panguitch, and Springdale, whose economies are symbiotically tied to 
the tourism dollars brought in by the domestic and international 
visitors who come to Utah.
    When the Federal Government partially closed on October 1, the 
effects were immediate, and they were dramatic. Local hotels went from 
being full to virtually empty in a matter of days and bus companies 
shut down. Many outfitters received cancellations that threatened their 
entire season and supporting businesses were facing the prospect of 
going bankrupt because of actions out of their control.
    However, the State of Utah and the Department of the Interior were 
able to quickly negotiate an agreement in which the State would upfront 
the money to the National Park Service in order to operate Utah's 
national parks and monuments until Federal budget crisis was resolved. 
The State committed approximately $1.67 million ($166,572 per day) to 
operate these facilities for 10 days. The Federal budget crisis was 
resolved 6 days after the State began subsidizing the operation of 
Utah's national parks and monuments.
    Ultimately, the Federal budget crisis was resolved 6 days after the 
State began subsidizing the operation of Utah's national parks and 
monuments. As of today, the Department of the Interior has refunded the 
unused portion (approximately $666,000) of the money that the State 
wired to the Federal Government. However, Utah has not yet received the 
remaining $1 million that it committed to operate these facilities.
    There are several reasons why the State of Utah should be 
compensated for this expenditure:

  1.  The National Park Service continued to collect all fees and 
            profits generated from the national parks and monuments 
            while the State of Utah paid to operate these facilities.
  2.  The National Park Service receives an annual budget allocation to 
            operate these facilities, and this money was not reduced to 
            account for the amount funded by State funds.
  3.  In the continuing resolution passed by the Congress, which 
            reopened the Federal Government, section 116 instructs that 
            when States use State funds to continue carrying out a 
            Federal program, the State shall be reimbursed for expenses 
            that would have been paid by the Federal Government during 
            such period had appropriations been available.

    The intent of the State of Utah in allocating State funds for the 
operation of these Federal facilities was meant to be a temporary 
solution until the budget impasse was resolved and the funds could be 
repaid. It is also clear that the intent of the continuing resolution 
passed by Congress was to fully reimburse States for State funds used 
to operate Federal programs. I support a Congressional solution in 
which the Interior Department is instructed to reimburse States for 
these expenditures as stated in the ``Providing Access and Retain 
Continuity (PARC) Act''
    However, the important guiding principle that must be upheld is 
that when States agree to help in a time of need, they should be fully 
compensated for this assistance.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate that.
    Mr. Daines, I would like to recognize you now to introduce 
your legislation.
    Mr. Daines. Thank you, Mr. Chairman, and thank you for 
holding this hearing on H.R. 3682, the Protecting States and 
Opening National Parks Act.
    I want to also thank the 26 bipartisan co-sponsors on this 
legislation, many whom are representing States who stepped up 
to the challenge as Utah did to open up our parks while the 
Obama administration refused access during the partial lapse in 
appropriations.
    It is rare we see much bipartisan agreement in this town. 
It is nice to see seven Democrats joining already as co-
sponsors on this bill on the House side. In fact, H.R. 3286 has 
a Senate companion bill already, Senate Bill 1572, sponsored by 
Senators Alexander, Hatch, Udall, and Bennett.
    Because we need to support our States who stepped up to the 
challenge during this most difficult time with this strong 
bipartisan support, and I urge passage of this solution to make 
these States whole for the expended costs due to inaction in 
Washington. That is what H.R. 3286 will provide.
    Nobody wanted to see the shutdown. It is important that 
when we see DC fail in its most basic responsibilities to 
govern, it is imperative we have contingency plans when the 
government cannot do its job, and this is what will help to 
remove the uncertainty because many families are planning 
vacations well in advance to our great national parks.
    I grew up an hour away from Yellowstone National Park. I 
went from kindergarten through college in Bozeman, Montana. We 
love our national parks. We love going up to Glacier Park in 
the State of Montana. They are truly treasures for this 
country, and when DC fails to do its job, we do not want the 
people to suffer, and when the States are willing to step up 
and be part of the solution, in fact, most folks back in 
Montana will tell me we would like to see DC look more like 
Montana, not the other way around.
    I come to Congress with a degree in engineering. I do not 
have a law degree. So I guess I am one of those endangered 
species up here. I am not a lawyer. I am an engineer. You are 
trained in engineering to identify a problem and then find a 
solution. In Montana, we get up early. We go to bed late. We 
work hard. We want to get the job done.
    And during the month of October, we knew that Washington, 
DC had a problem. However, the implementation of the partial 
shutdown when the administration forcefully prohibited access 
to public lands, it seemed that the administration was seeking 
to avoid a solution and only increase hardship.
    We saw that with the Department of the Interior responding 
on day one by barricading the veterans from the World War II 
memorial. The Department had signs prepared and displayed right 
away to ensure the public could not access public lands, even 
where there was normally no presence of Department officials 
whatsoever.
    I spoke to hunters in Montana who were seeking to cross 
some sections of Federal land, of public lands, and suddenly 
these signs were erected saying these public lands are closed, 
and for many in Montana it was a realization that these are not 
public lands. These are government lands with the government 
keeping the public out of their lands.
    This partial shutdown demonstrated almost too clearly what 
many have grown to understand, the fact that our public lands 
are anything but that. They are controlled by the government. 
During those 17 days, Montanans could not enjoy Yellowstone and 
Glacier Parks and other public lands, including many of our 
favorite places to hunt and fish.
    This year Yellowstone and Glacier lost over 50 percent of 
their visitors for the month of October as the administration 
did everything it could to make clear to the public that our 
parks were not open for business. Mr. Matt Sease, General 
Manager of the Super 8 in my home town of Bozeman--we are 
thrilled to have you here today--will testify on behalf of the 
hotel and lodging industry. He will describe the financial 
hardships our local economies endured during those 17 days that 
cost millions of dollars to our gateway economy.
    Teddy Roosevelt established the first national park, and 
that is Yellowstone National Park. On top of the Roosevelt Arch 
at Gardiner, Montana, are the President's words: ``for the 
benefit and the enjoyment of the people.'' During those 17 days 
the Obama administration failed to even try to uphold President 
Roosevelt's mantra.
    The administration's posturing during the partial shutdown 
had devastating effects on Montana and other States reliant on 
access to public lands. Luckily those several days into the 
shutdown on October 10, the administration finally allowed our 
States to provide what the Federal Government said it needed to 
allow access to our parks. While I am disappointed Montana did 
not take advantage of this flexibility, six States did step in 
and rose to the challenge of solving the problem of allowing 
the public back into their lands.
    These States deserve to be made whole, and that is why I 
introduced H.R. 3286 and urge its passage. I yield back my 
time.
    Mr. Bishop. Thank you.
    Mr. Sease, we are happy to have you here. It is always 
tough to be the last one on the panel, but your testimony is 
still great.
    You have 5 minutes. Please go for it.

  STATEMENT OF MATTHEW SEASE, TREASURER, MONTANA LODGING AND 
                    HOSPITALITY ASSOCIATION

    Mr. Sease. Chairman Bishop, Ranking Member Grijalva, and 
distinguished members of the Natural Resources Committee, I 
would like to thank you as well as Representative Steve Daines 
for inviting us to today's hearing.
    Montana has more spectacular, unspoiled land than anywhere 
else in the Lower 48. For those of us who call Big Sky Country 
home, we consider the mountains, rivers, and public lands a 
cherished part of our heritage. We take very seriously our 
inherent duty to balance, for both our residents and our 
millions of annual visitors, the responsible use of land and 
the unfettered access to it.
    It is with great interest and some trepidation that we, who 
call Montana home and depend heavily on the tourism that 
springs forth from the visitors to our Federal lands, are here 
today to support the Protecting States and Opening National 
Parks bill sponsored by our own Representative Steve Daines.
    The recent government shutdown essentially barred the 
people from their land. We hope this bill along with other 
congressional action will work to prevent this from ever 
happening again. Neither Montana's residents nor the thousands 
of tourists visiting at the time could access our two national 
parks. They had limited to no access to about a dozen wildlife 
refuges and were blocked from hundreds of fishing access points 
along our many rivers.
    The last item hit too close to home. Many Montanans had 
observed little or no Federal presence in the wildlife refuges 
in the months following the sequestration, but were astonished 
to see small armies of them the days leading to the shutdown 
and placing concrete barriers to block fishing access sites 
along rivers and warning locals not to trespass.
    Yellowstone and Glacier National Parks by all accounts are 
the crown jewels of our State's tourism industry. Nearly two-
thirds of our first time visitors come to Montana to visit one 
or both of the parks, and though a passion is ignited among 
many first time visitors to return and explore Montana, it is 
undoubtedly Yellowstone and Glacier National Parks that drive 
our industry and in large part our State's economy.
    In 2012, almost 11 million nonresident visitors traveled to 
Montana and spent $3.25 billion. Yellowstone country, the area 
of southern Montana bordering Yellowstone Park accounted for 
almost one billion of those dollars. Glacier country in the 
northwest part of the Montanas surrounding Glacier National 
Park accounted for over $700 million of that year's revenues.
    Those of us who live in Montana know that without the two 
national parks we could still spend our time in State parks, 
forests, rivers and trails, lakes and ski and wilderness areas, 
as well as the vibrant and charming gateway towns that we call 
home. But have no doubt the government shutdown had an 
incredible impact on our State's economy and our Montana brand 
because for millions of visitors across the world, the parks 
are Montana and Montana is the parks.
    It is incredibly important to understand just how far 
reaching the effect of the shutdown has been to our State's 
brand. For many of us when the shutdown ended on October 17, 
the impact did not. Dozens of hotels lost hundreds of 
reservations for the entire month of October and November as 
guests decided not to wait until the shutdown ended and then 
canceled their trips.
    Just this past weekend, local news in the Flathead Valley 
and Glacier Park reported that the park had a 52 percent drop 
in visitation for October compared for the same month in 2012. 
This is the single largest drop since the National Park Service 
has kept records since 1979.
    In the gateway town of West Yellowstone, Montana, a single 
business lost over $200,000 and closed two of its three 
properties, resulting in layoffs far ahead of those anticipated 
with the annual winter downsizing.
    It is also important to debunk a common myth that the 
shutdown had little impact on business because it happened in 
October. Admittedly, there is a change in Montana's business 
cycle following the peak summer season. For many of our small 
businesses who depend on nonresident travelers as their largest 
customer base, they depend heavily on the peak summer season 
not to make a profit but to make up the losses from the first 
two quarters of the year.
    The months of September and October proved to be the pure 
profit months. That is when the visitors and families who are 
not tied to a school calendar can visit the parks, attractions, 
and when winter begins to close them down, people drive forth 
in the thousands.
    Another small business owner who continues to suffer long 
after the shutdown is in Cooke City, Montana, on the scenic 
Beartooth Highway. She and her husband depend wholly on the 
profits made in October. These profits enable them to get 
through the end of the year until the snowmobile season begins 
in mid-January. Though their profits for that month might 
average less than $220,000 annually, it is these September and 
October revenues that allow them to make payroll in November 
and December and also reinvest for the future in their 
infrastructure.
    Though we will have to wait until the end of the current 
quarter to understand the full impact of the parks' closures 
through indicators like the monthly unemployment claims or 
drops in resort and bed tax revenues, we do not think anyone 
can argue the impacts are significant. Many hotels and tour 
companies are already getting phone calls from nervous booking 
agents concerned that the next government deadline in January 
will have a comparable impact on snowmobile tours and groups. 
Understandably these tour agents are hesitant to confirm 
bookings and reservations.
    In closing, Federal lands belong to the people. We are 
encouraged by this committee's hard work and Representative 
Daines' proposal to ensure access to these public lands.
    Thank you, Chairman.
    [The prepared statement of Mr. Sease follows:]
Prepared Statement of Mr. Matthew Sease, Treasurer, Montana Lodging and 
                        Hospitality Association
    Chairman Rob Bishop, Ranking Member Raul Grijalva and distinguished 
members of the Natural Resources Subcommittee on Public Lands and 
Environmental Regulation. I would like to thank you and thank 
Representative Steve Daines for the invitation to attend today's 
hearing.
    Montana has become known for having more spectacular unspoiled 
nature than anywhere else in the lower 48 States. For those of us who 
call Big Sky country home, we consider the mountains, rivers, and 
public lands a cherished part of our heritage. We take very seriously 
our inherent duty to balance, for both residents and our millions of 
annual visitors, the responsible use of the land as well as unfettered 
access to it.
    It is with great interest and some trepidation that we, who call 
Montana home and depend heavily on the tourism that springs from 
visitors to our Federal lands, are here today in support of the 
``Protecting States and Opening National Parks'' bill sponsored by our 
own Representative Steve Daines.
    The recent government shutdown essentially barred the people from 
their lands. We hope this bill, along with other congressional action, 
will work to prevent this from ever happening again.
    Neither Montana's residents, nor the thousands of tourists visiting 
at the time, could access our two national parks. They had limited to 
no access to about a dozen wildlife refuges, and were blocked from 
hundreds of fishing access points along our many rivers. The last item 
hit too close to home. Many Montanans had observed little or no Federal 
presence in the wildlife refuges in the months following sequestration, 
but were astonished to see small armies of them in the days leading up 
to the shutdown, emplacing concrete barriers to block fishing access 
sites along the rivers and warning locals not to trespass!
    Yellowstone and Glacier National Parks are, by all accounts, the 
crown jewels of our State's tourism industry. Nearly two-thirds of our 
first time visitors come to Montana to visit one or both of the parks. 
And though a passion is ignited among many first-time visitors to 
return and explore more of Montana, it is undoubtedly Yellowstone and 
Glacier National Parks that drive our industry and, in large part, our 
State's economy.
    In 2012, almost 11 million non-resident visitors traveled to 
Montana and spent over $3.25 billion in our State. Yellowstone Country, 
the area of southern Montana bordering Yellowstone Park, accounted for 
almost a billion dollars of that revenue . . . Glacier Country, the 
area of western and northwestern Montana surrounding Glacier Park, 
accounted for over $700 million of that year's total revenues.
    Those of us who live in Montana know that without the two national 
parks you could still spend a lifetime exploring our state parks, 
forests & trails, rivers & lakes, and ski & wilderness areas, as well 
as the vibrant & charming small towns we each call home.
    But have no doubt the government shutdown had an incredible impact 
on our State's economy and the Montana brand; because for millions of 
our visitors, the Parks are Montana . . . and Montana is the Parks.
    It is incredibly important to understand just how far-reaching the 
effect of the shutdown has been to our State's brand. For many of us, 
when the shutdown ended on October 17th, the impact did not. Dozens of 
hotels lost hundreds of reservations for the entire month of October 
and November as guests decided not to wait out the shutdown and 
canceled their trips.
    Just this weekend, local news in the Flathead Valley near Glacier 
Park reported that the park had a 52 percent drop in visitation for 
October compared to the same month in 2012. This is the single, largest 
drop since the park service began keeping records in 1979.
    In the gateway town of West Yellowstone, MT, a single business lost 
over $200,000 and closed two of its three properties, resulting in lay 
offs far ahead of those anticipated with the annual winter downsizing.
    It is also important to debunk a common myth that the shutdown had 
little impact on business because it happened in October. Admittedly, 
there is a change in Montana's business cycle following the peak summer 
season as we transition into winter.
    For many of our small businesses who depend on non-resident 
travelers as their largest customer base, they depend heavily on the 
peak summer season not to make a profit, but to offset the dismal 
revenues from the first two quarters of the year.
    The months of late September and October prove to be the ``pure-
profit'' period. That is when the visitors and families who are not 
tied to a school calendar can visit the parks' attractions before 
winter begins closing them down . . . and they do so in the thousands!
    Another small business owner who continues to suffer long after the 
shutdown ended is in Cooke City, MT on the scenic Beartooth Highway. 
She and her husband are wholly dependent on the profits made in 
October. These profits enable them to get through the end of the year 
until the snowmobile season begins in mid-January. Though their profits 
for that month might average less than $20,000 annually, it is these 
September and October revenues that allow them to make payroll in 
November and December, as well as to make small reinvestments in their 
infrastructure.
    Though we'll have to wait until the end of the current quarter to 
understand the full impact of the parks' closure through indicators 
like rise in monthly unemployment claims or drops in resort and bed tax 
revenues, we don't think anyone can argue the impacts will have been 
significant.
    To make one final point about the continuing impacts of the 
shutdown, I mentioned the snowmobile season. There are over 4,000 miles 
of groomed snow machine trails in Montana, predominantly on Federal 
lands, in addition to those trails maintained in Yellowstone National 
Park.
    Many hotels and tour companies are already getting phone calls from 
nervous booking agents concerned that the next government deadline in 
mid-January will have a comparable impact on snowmobile tours and 
groups. Understandably, they are hesitant to confirm bookings and 
reservations.
    In closing, Federal lands belong to the people. We are encouraged 
by this committee's hard work and Rep. Daines' proposed bill to ensure 
access to those lands.
    This concludes my public statement. With the Chairman's permission, 
I would ask to submit these and the rest of my prepared remarks, in 
writing, for the record.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate your testimony.
    Unfortunately, as you heard by the bell, the votes have 
been called. Members have about 9 minutes left to make it to 
the Floor. So we are going to suspend this hearing. I hate to 
do this to you. I apologize deeply. We will go take the votes, 
and then we will come back.
    For those of you who are planning, I would estimate, well, 
it depends on if the other side is going to do a motion to 
recommit. It could be a lot faster if they do not, hint, hint, 
hint.
    Mr. Grijalva. Probably.
    Mr. Bishop. All right. So it is going to be longer. But I 
would estimate at the minimum it is going to be 45 minutes 
before our return; probably more likely to be closer to 12. 
Well, that clock is off. It would be closer to 12 o'clock. It 
will be about an hour anyway.
    So I apologize for this. We do not like to do that, but I 
appreciate your patience with us. When we return we will take 
up questions on these two bills and then go to the other two 
bills that are still on the agenda.
    We are suspended.
    [Recess.]
    Mr. Bishop. We will begin our panel again. I appreciate our 
three witnesses for joining us again at the podium. I know some 
of the other members will be making their way briefly here, but 
for those of you who have not experienced the joy of the 
elevators in Longworth, you realize that that experience by 
itself will consume an eternity.
    We appreciate the testimony. We will pick up from that 
point with questions at this time. At this time, Mr. Grijalva, 
do you have any questions of these witnesses on these bills?
    Mr. Grijalva. I do, but let me defer.
    Mr. Bishop. Mr. DeFazio, would you like to go first on 
questions for these witnesses on these two bills?
    Mr. DeFazio. Yes. Thank you, Mr. Chairman.
    Mr. Sheaffer, what is the National Park Service budget 
today in relation to Fiscal Year 2011?
    Mr. Sheaffer. In relation to Fiscal Year 2011?
    Mr. DeFazio. Yes.
    Mr. Sheaffer. It is down.
    Mr. DeFazio. Is it down 12 percent since Fiscal Year 2011?
    Mr. Sheaffer. That is correct.
    Mr. DeFazio. So we have this donation by the States. If we 
repay, mandate donation repayment, where does it come from?
    Mr. Sheaffer. Well, as the bill is written, it would come 
out of the Treasury, not out of the National Park Service 
appropriation.
    Mr. DeFazio. It is my understanding that Appropriations 
would take it out of the Interior account.
    Mr. Sheaffer. Oh, that is possible. At the scoring level I 
supposed it could be.
    Mr. DeFazio. Right.
    Mr. Sheaffer. It could, yes.
    Mr. DeFazio. But at a 12 percent reduction, you are not 
really at a place to reimburse it yourselves.
    Mr. Sheaffer. I would say not. It would be difficult to 
find yet another $2 million.
    Mr. DeFazio. OK. There is a third bill which is not yet on 
the table. I mean if you sort of compare the three bills, we 
have one bill to reimburse the States for their donations, a 
second bill which is 3311 which says that we will just set up a 
system proactively to deal with this, and I am a bit puzzled by 
it. Mr. Cox, you testified in favor of it, and I am wondering 
your interpretation because it appears to me that the States 
would immediately take over the parks and run them.
    Is your State equipped, say, if you are notified on January 
15 that on January 16 the parks are going to be shut, to bring 
in a mass of well trained and already oriented State employees 
or contractors to run the park?
    Mr. Cox. I believe that we would contract with the parks as 
we did with this previous shutdown.
    Mr. DeFazio. OK. Well, the language then in the bill, I 
think, needs a little tightening because it says that the State 
seeks to conduct, and it is a very broad language, not to just 
contract.
    Now, during this last shutdown, you did not ask for the 
Park Service to reopen all of the parks in Utah. I believe it 
was 12 of 18; is that right?
    Mr. Cox. That is correct.
    Mr. DeFazio. And so if you were looking at future proactive 
agreements in case of another one of these self-inflicted 
wounds, would you endeavor to reopen all 18?
    Mr. Cox. Yes, I believe we would. The time constraints and 
the financial restraints because we were not sure exactly how 
this would work out, we tried to get the biggest bang for our 
buck from an economic standpoint.
    Mr. DeFazio. OK. And we did see some pretty high numbers 
from you about revenue that was lost to, I guess, tourism. I 
assume that is all categories, small businesses, et cetera.
    Mr. Cox. Correct.
    Mr. DeFazio. But some percentage of that probably would 
have flowed to the State in tax revenues. I do not know what 
your tax system is like.
    Mr. Cox. Yes, that is correct. Our taxes are lower than 
many States, but that is also correct.
    Mr. DeFazio. OK. So, Mr. Sheaffer, can you envision how 
much time it would take? I mean, how many units of the Park 
Service are there around the country?
    Mr. Sheaffer. About 400.
    Mr. DeFazio. Four hundred.
    Mr. Sheaffer. Yes.
    Mr. DeFazio. So if all of the Governors in all of the 
States wanted to have proactive anticipatory agreements, this 
would probably take some fairly substantial amount of 
resources, particularly if they varied their requirements or 
requests or specified things.
    Mr. Sheaffer. Absolutely.
    Mr. DeFazio. All right. I would note that I think that (a) 
the language would need tightening and (b) for something that 
has happened twice since I have been in Congress for 27 years 
and hopefully will never happen again, I would think that this 
would be really a waste of taxpayer money to enter into these 
proactive agreements with the States.
    So, you know, I would not support legislation, and the 
third bill, which is not subject to this panel but the next 
panel, would allow States to basically take any asset of the 
Federal Government under their management, still be reimbursed 
by the Federal Government for half the cost.
    So what do you think about that one? I mean, take Denali 
and Alaska takes it over. We pay them 50 percent of what it 
takes to run it. I mean, do our gate revenues provide what 
percentage of the cost of a park like that?
    Mr. Sheaffer. It varies by park, some higher than others, 
but I believe it is in the 7 to 8 percent range service-wide.
    Mr. DeFazio. OK. Thank you.
    Thank you, Mr. Chairman.
    Mr. Bishop. Mr. Stewart, do you have questions?
    Mr. Stewart. Yes. Again, Mr. Chairman, thank you.
    Mr. Bishop. Make sure your mike is on and you are talking 
into it.
    Mr. Stewart. Yes. Is that better?
    Mr. Bishop. Better.
    Mr. Stewart. Is this even better?
    Mr. Bishop. Personally I like it.
    [Laughter.]
    Mr. Stewart. Mr. Sheaffer, if I could spend just a little 
time with you, sir, recognizing that you represent the National 
Park Service. I guess to attain your position you have been 
with the parks for many years; is that true?
    Mr. Sheaffer. Over 40, yes, sir.
    Mr. Stewart. Over 40 years, and I am guessing you have 
spent some time in Washington.
    Mr. Sheaffer. All 40.
    Mr. Stewart. All 40 years.
    Mr. Sheaffer. Yes, sir.
    Mr. Stewart. I did not expect that. Well, that tells me you 
know a little bit about politics then, and in your 40 years 
here, you have seen a number of government shutdowns, true?
    Mr. Sheaffer. I have seen two of consequence, and then 
there was a very brief one in 2011, but the ones that affected 
us were 1995-96 and the most recent one.
    Mr. Stewart. And this one, yes. I appreciate that, and they 
were the ones that most people remember. There is no doubt.
    But I am sure that you know, and I will not ask the 
question because I know you know this, but you know, some of 
those were caused by Republicans when Republicans were held in 
power, but some of them were caused by Democrats when the 
Democratic Party was the party in power.
    And I will ask you a rhetorical question, but I would like 
your response. Would you be willing to bet your life savings 
that the government will never shut down again?
    Mr. Sheaffer. I would not.
    Mr. Stewart. Thank you.
    Mr. Sheaffer. Under these circumstances I would not. I 
thought you said it was a rhetorical question.
    Mr. Stewart. Yes, I do not think any of us would be willing 
to bet that because we hope that it does not, but politics 
being what it is, it has happened before more than once or 
twice. It has happened more than a dozen times, and it might 
happen again as much as many of us would like to avoid that.
    And I guess the essence of my question then is: if that 
were to happen again and, in fact, not if, but when it happens 
again I think many of us would say, would we not want to be 
prepared to keep our national parks open in that eventuality?
    And as I read your testimony, I have to tell you that I am 
not convinced by the reasonings the National Park Service has 
put forward in their objections to this bill. In fact, I am 
kind of puzzled by it because it seems to me that our 
objectives in this are the same. You would like to keep the 
parks open. I would like to keep the parks open. We are trying 
to find the best way to do that, and it seems to me, and I 
would like your answer to this; it seems to me like the Park 
Service is saying we do not want to do it because it is hard or 
because it is going to be expensive.
    But in comparison to the cost and the cost not just in 
dollars but in, you know, human costs, it seems like it is 
worth doing. Could you give me your thoughts on that?
    Mr. Sheaffer. Well, first of all, to be clear, the position 
represented here is the Administration's position on the issue, 
and that is, I think, a reflection that they do not want to 
have one-off solutions to stopgaps in the event of another 
lapse of appropriation, and I think that was reflected in 
decisions that were made throughout this past shutdown.
    Mr. Stewart. Right.
    Mr. Sheaffer. So it is not solely an issue regarding the 
National Park Service, but raising it to a higher level.
    Mr. Stewart. OK. And I understand that, and I understand 
and will concede the point. This is not a perfect solution, but 
it is a much better solution, in my opinion and in the opinion 
of many of us, than doing nothing or not preparing for this 
eventuality, which most of us agree will come.
    Mr. Cox, if I could turn to you for just a minute, sir, 
would you elaborate just a little more on some of the benefits 
that you think occurred to the States and particularly to the 
rural communities many of which are stressed? And many of them 
are stressed because of the point I made in my opening 
statement about the fact that the Federal Government has in 
many cases cut off access to just enormous slots of land, and 
the resources and the jobs that would be created from that, and 
I have left you nearly a minute, but help us understand what 
good benefits came because your Governor and you and the 
Administration, and to her credit the Secretary, and I am so 
grateful she was willing to do this, to her credit working with 
the State in a fashion to reopen the national parks very 
quickly.
    Mr. Cox. Thank you, Representative Stewart.
    Prior to serving as lieutenant Governor, I had the 
opportunity to serve as a County Commissioner for 4 years and 
am deeply knowledgeable when it comes to the impacts that our 
Federal lands have on small local rural communities. I come 
from a town of 1,200 people where I am raising my family.
    And the impacts are very serious. We are, again, talking 
about 70 percent of the State of Utah is covered with Federal 
lands and public lands, and so this was one instance where we 
were able to work together. The impacts were very real, were 
very severe, to the tune, again, of millions of dollars 
impacting very small communities that do not have that type, as 
Mr. Sease has said, that do not have those types of margins.
    For southern Utah especially as the weather starts to cool, 
this was the time when people spend their time in our national 
parks, and not just the citizens of Utah, not just the citizens 
of the United States, but across the world.
    Mr. Stewart. Yes. Thank you, Mr. Chairman.
    Mr. Bishop. Mr. Grijalva.
    Mr. Grijalva. Thank you very much.
    Let me, if I may, Mr. Chairman, Mr. Sheaffer, under the 
cooperative agreements that are articulated in H.R. 3311, would 
State employees, just to go over that point, be allowed to 
operate and staff the national park units?
    Mr. Sheaffer. I, frankly, as Mr. DeFazio said, think it 
appears that that is true. It appears that that is the 
authority that is granted there, yes.
    Mr. Grijalva. Is there any precedent for this arrangement 
that we know of?
    Mr. Sheaffer. Where the States perform Federal functions?
    Mr. Grijalva. Yes.
    Mr. Sheaffer. I am not certain that I know of any, no. I 
mean, we have cooperative agreements with States where we are 
collocated or located closely together.
    Mr. Grijalva. And each unit of the National Park Service is 
unique. They have unique sets of rules and regulations that 
guide the management of those units in each individual park; is 
that correct?
    Mr. Sheaffer. And legislation guiding that as well, yes, 
sir.
    Mr. Grijalva. And does the Park Service right now, just to 
get the information for us, have the authority to allow States 
to manage or co-manage units in the national park system?
    Mr. Sheaffer. No, sir.
    Mr. Grijalva. During the shutdown, how many employees did 
the National Park Service have to furlough?
    Mr. Sheaffer. Roughly 16,000.
    Mr. Grijalva. If I may, Mr. Lieutenant Governor, let me 
jump ahead to the legislation that has been signed by the 
Governor in Utah, H.R. 148, which has similarities to the 
legislation that was introduced by my colleague, Mr. Young, and 
it also ties into this question of a cooperative arrangement in 
preparation for the worst.
    A 2012 report, Mr. Lieutenant Governor, issued by the 
Utah's Constitutional Defense Council, recommends that the 
State of Utah increase funding for existing State parks to 
further demonstrate Utah's commitment to conserving and 
protecting its natural landscapes. This suggests that previous 
funding had not been sufficient to maintain those State parks.
    Given complete management prerogative by the State over the 
13 national parks, how does the State intend to fund the 
operation of those 13 additional national parks that would then 
become, given the legislation the Governor signed and is being 
litigated at this point or is going to be litigated, how do you 
fund that?
    Mr. Cox. I am sorry. I am not sure I understand the 
question. There were lots of subplots in that question.
    Mr. Grijalva. Well, the one subplot is that the 
Constitutional Defense Council said the operational budget for 
the national park units in Utah is $40.8 million in 2011. If 
Utah is successful in its bid to take over this Federal land, 
would Utah expect Congress to give a direct appropriation to 
that amount or half that amount in order to operate the parks, 
or would Utah now having complete authority over those lands be 
in a position to fund it itself?
    Mr. Cox. OK. So, again, trying to parse the portions of 
that question, so as it refers to H.R. 3311, we would set aside 
funds in the eventuality that there was another shutdown 
sufficient to, again, just like we did in the past shutdown, to 
pay for the operations of the parks, to contract with the park 
and their employees, and then we would expect to be reimbursed 
upon reopening of the parks.
    Mr. Grijalva. In a full takeover of the lands--you are 
talking about H.R. 3311--in a full takeover of the land 
consistent with the legislation that passed and was signed by 
the Governor in Utah, how would the States deal with issues 
like suppressing wildfires?
    Is a legislative framework in place to provide protections 
for all the laws and the mandates that are on Federal land now? 
Would they be similar to----
    Mr. Cox. Yes.
    Mr. Grijalva [continuing]. Six thousand abandoned mines in 
Utah.
    Mr. Cox. I am not sure how that is germane to the bills at 
hand, but I would say that the legislation passed by the State 
of Utah specifically excluded national parks.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Mr. Bishop. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Sheaffer, my question, you are testifying on behalf of 
the National Park Service today; is that correct?
    Mr. Sheaffer. That is correct, but some of these bills 
reference the other land managing agencies as well. So I am 
representing the Administration's position on those bills.
    Mr. Smith. OK. But in regards to H.R. 3286, you are 
testifying on behalf of the National Park Service?
    Mr. Sheaffer. Yes.
    Mr. Smith. OK. And let me get this straight. The taxpayers 
of the United States pay your salary as a Federal employee?
    Mr. Sheaffer. Correct.
    Mr. Smith. And you are testifying against them having 
access and availability in more ways for their lands to be 
open?
    Mr. Sheaffer. I do not understand the question.
    Mr. Smith. Is the National Park Service in your testimony, 
you are opposing H.R. 3286? You are opposing that, correct?
    In your testimony you said that the National Park Service 
was opposed to H.R. 3286.
    Mr. Sheaffer. That is correct. I believe I have the right 
number.
    Mr. Smith. And H.R. 3286 apparently to the language is 
providing another avenue of keeping our Federal parks open to 
the public, correct?
    Mr. Sheaffer. I believe that is its intent, yes.
    Mr. Smith. And you all are testifying to limit the parks 
from being open to the public.
    Mr. Sheaffer. We are testifying we are opposed to the 
language as written, yes.
    Mr. Smith. You know, I hope the committee sees the direct 
irony in this case of where the National Park Service is trying 
to limit access to the people that pay for the National Park 
Service to even be in existence. I think that is absolutely 
unacceptable, and whether it is the Administration or whoever 
it is that is advising the National Park Service, it needs to 
be addressed and looked into.
    With that I will yield the rest of my time, Mr. Chairman.
    Mr. Bishop. Thank you.
    Mrs. Lummis, do you have questions to these two 
specifically or do you want to hold on?
    Mrs. Lummis. Thanks, Mr. Chairman. I will defer until 
later. Thank you.
    Mr. Bishop. Let me ask what may be the last round of these 
questions, and, Mr. Sheaffer, I appreciate you being--
``Shaeffer'' or ``Sheaffer''?
    Mr. Sheaffer. ``Shaeffer.''
    Mr. Bishop. ``Shaeffer.'' I appreciate you being here. I 
realize you are the Comptroller, which means you have expertise 
on some of the questions we are going to ask, and I realize you 
do not have policy decisionmaking power down there, and you are 
not essentially responsible for the testimony that has been 
given to us, but I hope you would take back the message that 
some of the testimony that is presented on these three bills 
are some of the most atrocious testimony that we have actually 
heard in this particular committee.
    Now, let me go with a couple of the elements that are just 
being given. It is the testimony of the Department that 
legislation is necessary to actually give this money back to 
the States that was donated. Yet in the 1990s, you were able to 
work out agreements in which you actually accepted money and 
returned the money without legislation.
    Is that actually what the Park Service and the Department 
of the Interior is testifying today?
    Mr. Sheaffer. The distinction, if I may, Mr. Bishop, 
between the two is that the money that was given to us in 1995-
96 was very late in the shutdown operation and no charges were 
ever made to the donation account. That is very different from 
what happened here.
    Mr. Bishop. This has been very late in the shutdown process 
situation as well. So let me ask you: who initially rejected 
the offer of help from the States? Who in the Department made 
that decision to initially reject their States' offers?
    Mr. Sheaffer. I do not know who was on the phone with the 
State at that time, sir.
    Mr. Bishop. Do you know whose decision it was to close the 
parks despite the offers from the States?
    Mr. Sheaffer. To keep the parks closed despite the offers?
    Mr. Bishop. Yes.
    Mr. Sheaffer. I do not. I know that there were 
conversations between the Governor's Office and----
    Mr. Bishop. Then do you know who made the decision to 
change the policy to accept the money?
    Mr. Sheaffer. Ultimately I think the Secretary was engaged 
in all of those conversations and Director Jarvis and maybe 
others. I do not know.
    Mr. Bishop. All right. Let me go back to something which 
you should definitely have control over. The $2 million that 
has been expended for money sent to the States that you do not 
want to give back, that $2 million was covering what was 
suspended that could have been given you had the CR gone 
forward, correct? In lieu of not having the money because there 
was no CR.
    You now have the CR, which means you have the original 
amount of money. What the States gave you is in addition to 
that money. Where is that extra $1\1/2\ to $2 million floating 
around in your Department?
    Mr. Sheaffer. Well, at this time, the money that was spent 
by the State and then replaced, spent by the individual parks 
that was later replaced by appropriations, the answer to the 
question is the money would be in those parks.
    Mr. Bishop. So you still have the $2 million there. You 
have an additional roughly $2 million that is floating around 
in your budget that was not appropriated and you were not 
planning on when you originally had the appropriation.
    Mr. Sheaffer. Well, that is correct.
    Mr. Bishop. And you still do not want to give that $2 
million, which is still a surplus that you have, back to the 
States that originally gave it to you, even though now your 
budgets are whole. Is that the testimony, once again, of the 
Department?
    Mr. Sheaffer. Mr. Bishop, it is not an issue of want. We do 
not have the authority to return money that has been obligated 
from a donation.
    Mr. Bishop. Did you have the authority in the 1990s to do 
that?
    Mr. Sheaffer. The money was not used, just as we return 
money that was unused this year, Mr. Bishop.
    Mr. Bishop. Oh, so just because you actually gave a check, 
you do not have the authority to fix it.
    Mr. Sheaffer. I do not have the authority to----
    Mr. Bishop. Which would indicate why it would be essential 
for somebody like Congress to come and give you that authority 
and give you the plans so you do not have to face this kind of 
ludicrous situation in the future, would it not?
    Mr. Sheaffer. The authority to repay them?
    Mr. Bishop. Yes.
    Mr. Sheaffer. Yes.
    Mr. Bishop. If you are not willing to do it even though you 
have done it in the past by finding some condition of 
technicality, then obviously Congress needs to step up and do 
it for you since the Department is not willing to do it on 
their own account.
    Mr. Sheaffer. We need congressional authority to repay 
money.
    Mr. Bishop. How long did it take to make this deal with the 
States?
    Mr. Sheaffer. It took a very short time actually. We worked 
it through in a----
    Mr. Bishop. Mr. Cox, how long did it take for you to make a 
deal with the Park Services?
    Mr. Cox. Less than 24 hours.
    Mr. Bishop. Your testimony is you took in less than 24 
hours the concept to do here, but if you were to do future 
planning so this situation was avoided in the future, the 
testimony of the Department is it would take you too long to 
actually work through that?
    The workload to actually make prior preparations for what 
could happen is too onerous that the Department cannot actually 
spend the time and effort to do that, when you were able to 
solve this problem in less than 24 hours? Is that really what 
this Department is testifying?
    Mr. Sheaffer. I think part of it is. I think part of it is, 
as was said by Mr. DeFazio, is that it depends on the 
conditions under which they would be willing to sign an 
agreement. If they were as straightforward as these, it 
probably would not take very long.
    Mr. Bishop. So would it not be wise to do it now in 
legislation? Why is the Department so adamantly opposed to 
solving the problem ahead of time?
    Mr. Sheaffer. I can only say, sir, that the Administration 
is opposed to solving one problem in one Federal program under 
the conditions that might present themselves in the future.
    Mr. Bishop. I do have other questions, but I want to allow 
others to go forward before I do because I have run out of 
time.
    Mr. Grijalva, do you have more upon this bill?
    Mr. Grijalva. I will go after him.
    Mr. Bishop. Mr. Stewart, do you have more questions on this 
one?
    Mr. Stewart. No, I am enjoying listening to you.
    Mr. Bishop. Mr. Grijalva.
    Mr. Grijalva. Mr. Sheaffer, you made a point, and I think 
it is a valid point because this whole discussion is about, and 
appropriately so, a value judgment, that the parks are a value, 
economic, aesthetically, to the States. I think it was 
mentioned in Montana, that it is part of our brand. Part of our 
marketing is the national parks, and that because of that brand 
and that marketing, and when it is not available to the public 
we lose money. So it is a value judgment that we are making 
here.
    There are equally compelling value judgments of the people 
that, because of the shutdown, were hurt in other areas other 
than the parks. So the consistency point that you brought up, 
that why does one area get spared when you set up legislation 
for reimbursement and for cooperative agreements with the 
States around the issue of parks, but we do not set them up 
around the issue of Head Start. We do not set them up around 
the issue of our public schools. We do not set them up about 
the issue of cancer treatment centers and other places that 
depend on Federal funding, Meals on Wheels, our defense 
industry in a variety of States.
    So, you know, while this is an appropriate value judgment, 
there are across the board value judgments. I wondered if the 
State of Utah or Arizona would be willing to sign a cooperative 
agreement that if we shut down again, the Head Start centers 
are going to stay open and that Indian Health Services is going 
to continue to function at the level that it should.
    I wonder if they are prepared to do those kinds of 
agreements. I would suggest they are not. This is a neutral 
feel good, and it should be a feel good issue because our parks 
are about the American people feeling good, but you know, this 
whole shutdown did not just linger here at the parks. It 
lingered in every other funding area in this country, and 
everybody suffered from it.
    You know, if we want to be consistent, then bring us 
cooperative agreements and legislation that ties States to 
continuing funding in all areas affected by a shutdown, not 
just this one.
    I yield back.
    Mr. Bishop. I do appreciate what Mr. Grijalva has just 
said, and I would like simply to point out that while the 
shutdown was going on, the House did vote to open up all of 
these. We did vote to actually do that kind of stuff, and I 
actually would not be opposed to that, but unfortunately, the 
tenor of this committee is only dealing with public lands, and 
what we are dealing with is public lands.
    Mr. Sheaffer, I want to correct one of the statements that 
you made, and once again I understand you are not a policymaker 
in the Department. However, there are Federal lands that are 
being managed by State and local government by an agreement, 
and, yes, you do have the power to do that. We do them in Sand 
Flats, Coral Pink Sand Dunes in Utah, and, yes, that does mean, 
to answer one of the other questions that was brought up, that 
State employees do the same function that Federal employees 
would do. It is just a matter of who actually signs the 
particular check.
    Mr. Sheaffer, I want to say, well, two other things here, 
and then we will move on to the other pieces of legislation. 
The question has been made of whether the State is willing to 
actually fund any obligation. Mr. Cox, you stated clearly that 
the State Law 148, which was referenced, does not ask for 
taking over the parks or wilderness and several other areas.
    Is the State prepared if this bill were passed to actually 
pony up and pay for these things?
    Mr. Cox. Yes.
    Mr. Bishop. Which simply indicates that if the Federal 
Government has a backlog that in Alaska itself is $121 million, 
States certainly could do no worse than what the Federal 
Government is doing in ownership and management of these 
particular pieces of land and actually should be given the 
opportunity.
    Mr. Sheaffer, when you go back what is so galling to me 
about the testimony the Department gave is ultimately--and you 
can correct me if I am wrong--but you ultimately are saying the 
Administration opposes these two pieces of legislation because 
there should not be a shutdown at all. That is the bad point.
    You are strongly opposed to it because it would take too 
much work to try and implement a solution ahead of time. That 
testimony is the indication of some entity that has simply 
spent too long in bureaucratic excess and not actually trying 
to do things that help people.
    Mr. Cox, I will ask one last question and I will be done 
with my time. If what we are hearing now in the Department's 
testimony is they do not want to work with States and they do 
not want to have solutions in the future, what in the hell does 
that tell your businesses that work around these parks? I mean, 
you open it up because of the business activity. What are you 
now going to tell those businesses that simply say the Park 
Service strongly opposes any type of effort to solve this 
problem in the future?
    Mr. Cox. Well, I must admit we were really surprised and 
shocked at the testimony that was submitted by the parks 
because the reaction has been so incredibly positive. 
Everywhere we go we just hear, ``Thank you so much for working. 
Thank you so much for not being dysfunctional. Thank you for 
making this happen. Thank you for reopening the parks. We 
realize that people actually care about us.''
    And it would seem that we would now have to tell them that 
that is not necessarily the case.
    Mr. Bishop. Thank you.
    I will ask one last question of you, even though I did not 
mean to. Can you tell me your hometown, so that somebody whose 
roots go back to Mount Pleasant----
    Mr. Cox. I am from Fairview. My wife is from Mount 
Pleasant, and we are Sanpete County kids.
    Mr. Bishop. I do that for my staff and my staff only.
    Mr. Cox. Thank you.
    Mr. Bishop. Let me say one last thing. I am actually at the 
end of the questions. Then on these two pieces of legislation I 
wish to appreciate your being here, Mr. Sease. We did not 
actually have a chance to go into much more detail, but I 
appreciate the testimony you have given. Your written testimony 
is in the record.
    There may be other questions that will be asked by 
committee members. We would ask you to be responsive to those 
in writing in the period of time.
    Mr. Sheaffer, we would ask you to stay on the panel for the 
rest of it.
    May I state just before we go on to the other things 
because I am going to be even nastier as we come forward, I 
recognize you are the Comptroller. You did not write the 
testimony, but this is the testimony. My problems, my 
complaints are not necessarily for you and what you are doing 
with the counting of the money. It is with the testimony that 
was submitted by the Department of the Interior.
    I apologize that you are having to face the brunt of that 
testimony.
    With that we will dismiss the Lieutenant Governor, Mr. 
Sease. We appreciate your time and effort of being here.
    Let me bring both of the witnesses and we will do these two 
bills again together here. We have H.R. 3294, Mr. Young, and 
also H.R. 3492, which is going to be extremely difficult if you 
are dyslexic, for Mrs. Lummis for that.
    So I would like to bring Robert Nelson, Dr. Robert Nelson 
from the University of Maryland, who is parenthetically a great 
author. I have enjoyed reading his books, and also Aaron 
Pruzan, if I have pronounced that properly, from Wilson, 
Wyoming, who will be talking about these two particular bills.
    Let me for the sake of continuity, did you mind which order 
we go in these things?
    Mr. Grijalva. Either one.
    Mr. Bishop. Well, that is kind of you. All right.
    Mrs. Lummis, I would ask you if you would introduce your 
bill that deals with activities in wild and scenic rivers, and 
then we will turn to Mr. Pruzan if he would like to testify for 
5 minutes about this particular piece of legislation. Then we 
will go to Mr. Young to introduce his legislation, and then, 
Dr. Nelson, if you would bat clean-up on that particular 
legislation, and then we will see if there any other questions 
that could be applicable to all three of you.
    Mr. Sheaffer had the opportunity of commenting on all of 
these bills in his opening statement.
    So, Mrs. Lummis, 5 minutes.
    Mrs. Lummis. Thank you, Mr. Chairman.
    I really do appreciate the opportunity to present 
legislation to provide for paddling in Yellowstone National 
Park, Grand Teton National Park, and the National Elk Refuge.
    H.R. 3492 would remove from the Code of Federal Regulations 
a 60-year-old ban on paddling. Now, that ban was put in place 
after World War II to limit fishing. This bill's intent is to 
vest river management decisions in the Superintendents of the 
park where they can be properly considered.
    This legislation is in response to the Comprehensive River 
Management Plan environmental assessment that was published for 
public comment under the Craig Thomas Snake Headwaters Legacy 
Act of 2009. Requests to increase paddling access were denied 
by the Park Service and labeled an alternative considered but 
dismissed from detailed evaluation, and the reasoning for that 
was it conflicts with existing regulations.
    Mr. Chairman, I just believe the paddling community 
deserves a seat at the table. Organizations like American 
Whitewater have tried to engage the Park Service on this issue 
for decades, and groups like the American Packrafting 
Association were founded in Wyoming to represent this 
recreational community.
    At this point, Mr. Chairman, I would ask unanimous consent 
to include their comments and testimony on the River Paddling 
Protection Act in the record.
    Mr. Bishop. Without objection, so ordered.
    [Testimony of American Whitewater and American Packrafting 
Association on the River Paddling Protection Act follows:]

  Prepared Statement of Kevin Colburn, National Stewardship Director, 
                 American Whitewater, Missoula, Montana
                h.r. 3492--river paddling protection act
    l am writing to voice my appreciation for the introduction of H.R. 
3492, the River Paddling Protection Act, on behalf of American 
Whitewater and our over 5,500 members. Founded in 1954, American 
Whitewater is a national nonprofit organization dedicated to conserving 
and restoring our Nation's whitewater resources, and enhancing 
opportunities to enjoy them safely. Our members are primarily non-
commercial and conservation-oriented kayakers, canoeists, and rafters.
    Americans are prohibited from canoeing, kayaking, and rafting on 
hundreds, or likely thousands of miles of exceptional rivers and 
streams in Yellowstone and Grand Teton national parks. These paddling 
bans have had a profound personal impact on many Americans. Standing on 
the bank looking at a river is just not the same as floating down it, 
interacting with each current, watching the landscape unfold around you 
and above you. Paddling requires an intense focus not just on your path 
through a rapid or pool, but on the landscape, the weather, the arc of 
the sun--literally everything around you. The act of paddling creates 
rich, vivid, memorable experiences that are unique to each river, each 
day, and each landscape. For paddlers that live near or travel to these 
parks, the paddling bans have prevented them from establishing this 
unique connection with one of the most iconic and beautiful landscapes 
on earth. Many simply avoid the area. For many Americans, the paddling 
bans make the region a less attractive place to live, raise a family, 
start a business, or vacation for many Americans.
    The paddling bans are based on outdated regulations from the 1950s, 
and have denied three generations of Americans the outstanding 
experience of paddling the rivers in Yellowstone and Grand Teton. These 
regulations were aimed at stemming rampant over-fishing, a concern now 
easily managed by other means without impacting those that simply want 
to float downstream. Today we know that both fishing and paddling can 
be managed in an environmentally sustainable manner with common 
management tools. On the vast majority of rivers across the country, no 
special management of paddling is needed at all. Paddlers simply park 
at existing parking areas, launch at bridges, hike on existing trails, 
and silently float downstream. With that said, American Whitewater 
fully supports reasonable limits on paddling and other forms of 
recreation to protect natural resources and their enjoyment.
    It is well worth noting that the paddling prohibitions run counter 
to modern National Park Service policies and priorities. These policies 
are perhaps best summarized in the following quote from Section 8.1.2 
of the National Park Service Management Policies manual:

        To provide for enjoyment of the parks, the National Park 
        Service will encourage visitor activities that: are appropriate 
        to the purpose for which the park was established; and are 
        inspirational, educational, or healthful, and otherwise 
        appropriate to the park environment; and will foster an 
        understanding of and appreciation for park resources and 
        values, or will promote enjoyment through a direct association 
        with, interaction with, or relation to park resources; and can 
        be sustained without causing unacceptable impacts to park 
        resources or values.

    Paddling meets all these standards perfectly, and is indeed 
supported across the National Park System. The National Park Service is 
an outstanding partner in river management and protection. The issue 
addressed by H.R. 3492 is endemic to only Yellowstone and Grand Teton 
National Parks, and is distinct from the otherwise largely exemplary 
management of paddling throughout the National Park System.
    American Whitewater recently requested that Grand Teton and 
Yellowstone national parks consider allowing non-commercial paddling on 
several newly designated Wild and Scenic Rivers that are within their 
borders. The parks refused, stating that paddling was prohibited by 
Federal-level regulations that were beyond their control. These parks 
claim to not have the discretion to manage paddling commensurate with 
other activities. As far as we are aware, all other parks have this 
discretion, and these antiquated Federal-level prohibitions are a 
regulatory anomaly.
    The River Paddling Protection Act, under Sections 2(a)(1) and 
2(a)(2) would restore management authority over paddling to the park 
managers. We believe that this is a worthy and necessary goal that 
would set no precedents nor in any way limit the National Park 
Service's authority. In fact, we believe it would eliminate a bad 
precedent and restore standard National Park Service authorities. We 
fully support this language.
    American Whitewater believes that outdoor recreation and 
conservation are two sides of the same coin. Our Nation's great 
conservation leaders each had a direct connection to the outdoors 
through recreation; be it hunting, hiking, mountaineering, paddling, or 
something else. Future leaders will also without a doubt draw on these 
same experiences for inspiration. Direct experiences on wild and 
natural rivers forge a strong stewardship ethic among paddlers. In 
short paddlers care about rivers and want to see them protected. It is 
thus imperative that the authority of the National Park Service to 
preserve the natural resources of Yellowstone and Grand Teton national 
parks remain unaffected by this legislation. If Congress determines 
that H.R. 3492, as written, affects these authorities we welcome the 
opportunity to discuss and endorse friendly amendments.
    Specifically, if the statement ``and the Secretary of the Interior 
may not issue substantially similar regulations that apply to hand-
propelled vessels'' in Section 2(a) is determined to limit the National 
Park Service's ability or authority to manage paddling commensurate 
with other similar uses, using the full suite of management tools and 
following Agency protocol, then we ask that the language be struck, 
modified, or clarified to meet the interests described above.
    It is no secret that past park managers have valued the paddling 
bans as part of the unique tradition of managing Yellowstone and Grand 
Teton. Paddling rivers through these iconic landscapes has a long and 
storied history involving early explorers as well as famous 
conservationists like Olaus Murie. It is not a new use; it is an old 
one, and the 60-year ban is but a blink in the cultural history and 
future of Yellowstone. The paddling bans are not a tradition of the 
American public, and the American public needs opportunities for a 
direct connection with nature more than ever.
    We trust that the current park managers, in the absence of the 
Federal-level prohibitions, will prioritize healthy and sustainable 
outdoor recreation, and restore Americans' opportunities to float 
rivers within the parks. We believe that Yellowstone Superintendent Dan 
Wenk and the incoming Superintendent of Grand Teton will be up to this 
challenge, and look forward to working with them to implement positive 
changes in the management of the parks they oversee.
    As a final matter, National Elk Refuge managers have recently 
decided that paddling is not compatible with the purposes of the 
Refuge. We question this decision, and the Refuge offered no analysis 
to support their position. H.R. 3492 seeks to remedy this arbitrary 
determination by declaring that paddling is one of the priority 
``wildlife-dependent'' activities on the National Elk Refuge. This 
declaration however, would alter or subvert system-wide organic 
legislation and have no practical effect. Subject to governing rules 
and laws, the U.S. Fish and Wildlife Service may choose to prohibit 
paddling or allow it whether they view it as a wildlife-dependent 
activity or not. Their regulations allow for non-wildlife-dependent 
recreation, including paddling, under many circumstances. While we 
believe the U.S. Fish and Wildlife Service is arbitrarily excluding the 
public from floating rivers in the Refuge, we can see no appropriate 
legislative remedy for this unsupported Agency perspective. We ask that 
Section 2(b) be struck or substantially modified based on these 
concerns.
    The River Paddling Protection Act is an essential step in restoring 
the same management authorities and mix of potential recreational 
opportunities that exist in other National Parks to Yellowstone and 
Grand Teton. We recognize that the bill will be discussed at length, 
possibly improved upon, and fully vetted. We look forward to being an 
active participant in this process. I welcome questions and feedback 
regarding this testimony.
    Thank you for considering the interests of the many Americans who 
deeply value the opportunity to paddle wild rivers.

                                 ______
                                 

                                 [GRAPHIC] [TIFF OMITTED] T5668.001
                                 
                                 .eps[GRAPHIC] [TIFF OMITTED] T5668.002
                                 
                                 .eps[GRAPHIC] [TIFF OMITTED] T5668.003
                                 

                                 .eps__
                                 

    Mrs. Lummis. Thank you, Mr. Chairman.
    These groups, of which many were instrumental in designing 
the Snake River Headwaters as wild and scenic, expected the new 
management plan for those rivers to include a public discussion 
on the benefits of paddling. What H.R. 3492 would allow for is 
simply that discussion.
    This bill does not prohibit Park Superintendents from 
proposing park management plans on paddling or restricting 
access in their annual compendiums. It does, however, remove 
the Federal regulatory prohibition on paddling that has been 
cited as a reason for not doing a detailed evaluation.
    Now, there may be ways to improve on this bill as written, 
and I will continue to work with the Park Service and the Fish 
and Wildlife Service to clarify its provisions. I can attest 
that local rafters like Aaron Pruzan, our witness today, are 
looking for a balanced solution to river access.
    And I want to welcome Aaron to Washington and to this 
panel. Aaron is the owner of Rendezvous River Sports and 
Jackson Hole Kayak School. He is a long time advocate for 
stewardship of the rivers and one of the community leaders on 
the Craig Thomas Snakehead Waters Legacy Act. He loves paddling 
as an outdoorsman, as a business owner, as a guide, a coach, 
and as a father.
    Aaron, I look forward to hearing your testimony today. 
Thank you for being here. Welcome.
    Mr. Chairman, I yield back.
    Mr. Bishop. Thank you.
    Mr. Pruzan, you are recognized for 5 minutes as well to 
give us your testimony.

           STATEMENT OF AARON PRUZAN, WILSON, WYOMING

    Mr. Pruzan. Thank you very much, Mr. Chairman and Ranking 
Member Grijalva. I appreciate the opportunity to be here and 
speak before you, and thanks to the rest of you who are here as 
well.
    Representative Lummis gave me a great introduction. So I 
will not go on further, and I have submitted testimony. So you 
are welcome to read all of that.
    You know, over the years I have introduced thousands of 
people to the sport of paddling. It has been my life, and I 
will say that the river running community and paddlers in 
general are great stewards of the resource that we enjoy, and 
my own work on river stewardship in the Jacksonville area is 
extensive. I was one of the founding board members of the Snake 
River Fund, which is the river stewardship organization in 
northwest Wyoming, and we created one of the first nonprofit 
and public partnerships that exist and one of the only 
nonprofit partnerships that exist where we actually help the 
U.S. Forest Service manage the Snake River through Jackson Hole 
with private donations and funding from outfitters.
    I was also instrumental in taking a leadership role in the 
Craig Thomas Snake River Headwaters Legacy Act, which protects 
over 400 miles of the upper Snake River Watershed. It was a 
groundbreaking Act in that it took a watershed approach to 
conservation.
    And you know, when the management plan came forward, we 
thought this was a great opportunity to look at paddling again. 
I will note that even though I am in the commercial outfitting 
business and I do have a retail store, I am not here 
representing my own commercial interests or any commercial 
interests. I am here representing the thousands of paddlers 
from our region and tens of thousands of paddlers beyond that 
are interested in paddling in Yellowstone National Park.
    And the fact is that this boating ban as Representative 
Lummis pointed out is extremely outdated. It was initially 
intended to prevent overfishing. They did not want float 
fishing on these rivers because the fishery in Yellowstone was 
in trouble in the 1950s.
    And it did not really look at the unforeseen consequence of 
the fact that these are great recreational rivers for paddling 
and other low impact uses, canoeing, small rafts, et cetera. So 
it is outdated, and it really needs to go.
    When we have tried to have discussions with Park Service 
people at the regional and local level, we have pretty much 
been stonewalled by the fact that this paddling ban exists. So 
if it is gotten rid of, then we would at least be able to have 
that discussion.
    And we know because there are many great examples 
throughout our region that paddlers can access these rivers and 
enjoy this resource without any harm to the resource. Many 
other rivers in the region are managed successfully. For 
instance, the Selway River only allows one launch a day during 
the season, but paddlers understand that, and they realize that 
access to that river is very special, yet you can get access. 
Whereas the rivers of Yellowstone are completely shut off to 
access and many of the rivers of Grand Teton are as well.
    So we are not asking for any additional facilities to be 
built. Parking areas, trails to the rivers already exist. This 
could be done in a very inexpensive fashion, would not cost a 
lot of money, and is a great form of recreation, again, human 
powered recreation.
    When you look at Yellowstone, I mean, it is a sad fact most 
people enjoy Yellowstone from the seat of their cars. I mean, 
they just do. It is a roadside park. Very few people ever get 
away from the boardwalks, and you know, here we have from the 
highest Federal levels a mandate to get people outside, get 
people recreating, get people enjoying the outdoors.
    I have taken part in listening groups in the past with 
Forest Service and Park Service personnel saying, ``What are 
the impediments to outdoor recreation?'' Well, this is a big 
one that is outdated and it would be easy to get rid of. It is 
a great way to enjoy the outdoors. It is a healthy activity 
that is extremely low impact to the environment.
    We understand and I have had many conversations with my 
colleagues in the conservation community about this bill 
already, and we understand that the language needs to be 
tightened up, and I will say it is vitally important that the 
final language of this bill be very specific to ending the 
antiquated boating ban in Yellowstone and Grand Teton and this 
bill not be misconstrued or set a precedent that may apply to 
other parks or other uses in the future.
    We are not looking to take away management responsibility 
from the Superintendents of Yellowstone and Grand Teton. We are 
looking to give it back to them, and by passing this bill, that 
is exactly what it will do.
    And I just want you to know if you do not have one of these 
currently in your wallet, if anybody in the room does not have 
one of these in their wallet, it is an incredible value. For a 
very low cost and no interest rates, you can get a National 
Parks pass, which gets you into all 400 parks in the Nation, 
and look at what is on the cover of the pass. It is a kayaker 
going through rapids. So it is an accepted activity in most 
parks and many wilderness areas.
    Thank you very much.
    The prepared statement of Mr. Pruzan follows:]
             Prepared Statement of Aaron Pruzan, Wilson, WY
          concerning h.r. 3492, river paddling protection act
    I am Aaron Pruzan and I live in Jackson Hole, Wyoming with my wife 
Tamsen and our three children, Noah, Nate and Neve. As a retailer, 
instructor, guide and coach I have introduced thousands of people of 
all ages to the joy of paddling rivers since I began my career in 1993. 
In 1995 I started Rendezvous River Sports and Jackson Hole Kayak 
School, a retail sales and outfitting destination which quickly became 
the hub of paddling activities in Wyoming. I am very fortunate that I 
have turned my passion for river running into my career and can share 
that passion with so many people from all walks of life.
    In 1996, in response to the youth skiing community wanting more 
summer activities, I founded the Jackson Hole Kayak Club to give the 
opportunity for kids in the Jackson Hole area to understand and 
experience the waterways of the Greater Yellowstone Ecosystem. Since 
that time I have taken generations of young kayakers--now including my 
own kids--to rivers throughout the West to enjoy healthy outdoor 
recreation.
    In 2009 I began working with Teton Adaptive Sports to provide free 
adaptive paddling opportunities for special needs kids and adults. In 
addition we provide free paddling and rafting programs for Honoring Our 
Veterans, which facilitates outdoor experiences for returning veterans 
and wounded warriors. We have worked extensively with the City Kids 
Wilderness Project which gives inner city kids from Washington, DC the 
opportunity to experience the rivers and mountains of Wyoming.
    Over the past three decades I have enjoyed paddling in many 
spectacular places as a team member on numerous whitewater expeditions, 
exploratory descents and in individual kayaking competitions. This 
includes exploratory river running in Wyoming, British Columbia, Chile, 
Argentina, New Zealand and Siberia.
    Paddling has fostered in me, as it has in others, a deep sense of 
stewardship for the rivers I experience. I have worked extensively for 
river stewardship as a founding board member of the Snake River Fund 
and a board member of American Whitewater. This work included being one 
of the leaders of the Campaign for the Snake River Headwaters. Through 
this 6-year process I worked with numerous conservation organizations, 
hosted planning meetings at my store, met with landowners, presented 
the campaign at public forums and helped build lasting partnerships 
between different river users and political affiliations. This 
culminated in 2009 with the passage of the Craig Thomas Snake River 
Headwaters Legacy Act, which protects 400 miles of the upper Snake 
River and was one of the largest conservation measures in Wyoming in 
many decades.
    In 2010 I spearheaded the special excise tax funding proposition 
which was approved by voters in Teton County and provides funding to 
facilitate the transfer of riparian lands from the Bureau of Land 
Management to Teton County for river access and preservation. I am 
currently working to complete this process with the addition of private 
lands and the creation of riverside parks and access points at South 
Park, Wilson and Hoback Junction on the Snake River in Jackson Hole.
    As a current member of the Jackson Hole Travel and Tourism Board I 
am working to promote outdoor recreation and sustainable travel. 
Jackson Hole and the Greater Yellowstone Area are a national treasure 
and we are working to be a world leader in sustainable tourism as well.
    I have traveled to Washington, DC twice before. Both times were to 
meet with our Wyoming Members of Congress to advocate for the Land and 
Water Conservation Fund. LWCF funding is very important to Wyoming as 
LWCF funds have been used to acquire valuable lands in river corridors, 
with more riparian lands targeted for purchase via LWCF in the upcoming 
year.
    While I make my living sharing rivers with people, I am not 
testifying on behalf of my own or anyone's commercial interests. I am 
testifying on behalf of the many people that cherish the opportunity to 
experience rivers and special places in their kayaks, canoes, and 
rafts. This is a community of people that have a deep land and river 
stewardship ethic and a strong connection with the natural world. 
Through nearly every aspect of my life I am part of that community, and 
it is an honor to testify on their behalf.
    The rivers of Jackson Hole are one of the main reasons many 
visitors come to our area. This is part of a long tradition; river 
running was one of the original and primary means of travel throughout 
the West. Today, whether using traditional hard shell kayaks, 
inflatable kayaks or pack rafts (small one-person rafts that fit in a 
backpack) paddling down a river is still one of the most enjoyable and 
low impact ways to experience the outdoors. A day paddling on the river 
offers an almost magical connection with the landscape and the water, 
and different stretches of river offer something for everyone, from 
floating tranquil waters flowing through quiet canyons to the rush and 
roar of rapids and the challenge of paddling whitewater. Paddling 
teaches skills and awareness, fosters an appreciation of nature and 
protected areas, and is truly a lifetime activity enjoyed by all ages.
    There is a current push from the highest levels of government to 
get more people outside and involved in fitness activities and 
specifically outdoor recreation. My staff and I are actually doing that 
all summer long by getting kids and adults away from their computers, 
tablets and smart phones and out on the water paddling. In this over-
stimulating era, rivers require kids and adults alike to focus on 
natural forces and the natural world, to calm their minds, and exercise 
their bodies. It is exactly the type of activity that our National Park 
System was set up to support.
    In the late 1920s the great conservationist Olaus Murie embarked on 
a canoe trip on the Upper Yellowstone River with his two sons. 
Reflecting on the experience in his book Wapiti Wilderness, he wrote: 
``When you go into country by pack train the streams are only for 
crossing, or to camp beside. To know a stream you travel on it, 
struggle with it, live with it hour by hour and day by day.''
    I am very fortunate to have gotten to know many rivers while 
kayaking with my own family, my 6- and 8-year-old boys in their kids 
kayaks, my 4-year-old daughter in the front seat of my tandem with me 
and my wife paddling alongside. River running is an incredible family 
activity, it provides endless excitement and is something real we all 
share together that is an experience far beyond anything that a TV, 
video game or amusement park can offer. Unfortunately though, I am 
forbidden from replicating Olaus Murie's trip, or taking my family on 
any river trip in Grand Teton or Yellowstone National Park except for 
on portions of the Snake and Lewis rivers. The National Park Service 
forbids floating all other rivers in these parks.
    As someone who has paddled many of the world's most formidable 
whitewater rivers, as well as many that are perfect family floats, I 
can attest that Yellowstone and Grand Teton National Parks offer some 
of the best paddling opportunities in the World for all abilities. Not 
only would the rivers themselves offer wonderful rapids, currents, and 
pools, but floating quietly though these areas and taking in the unique 
scenery would be an experience of a lifetime for many people. It would 
give Park visitors a truly wild experience of a very special place.
    Visitors to our area often ask incredulously why these rivers are 
closed. The history of the boating ban in Yellowstone and Grand Teton 
dates back to the 1950s and was solely intended to curb the overfishing 
the plagued the Parks. This resulted in the unforeseen consequence of 
banning future access to rivers and streams for enjoyment by paddling. 
Even though rivers like the Yellowstone had been paddled, the high 
value of the river recreation resource that exists in both national 
parks was not envisioned 60 years ago. This ban lives on, while in 
other national parks and wilderness areas paddling is a regular 
activity (check out the kayaker on the latest National Parks Pass) that 
is managed in a simple and sustainable manner.
    To live so near to these amazing rivers and yet be unable to 
experience them is a constant frustration for me, many other residents 
of the area surrounding the Parks, and many visitors. Many of our 
students and kids that I coach strive to be able to run rivers like the 
Yellowstone and have trouble understanding why the boating ban still 
exists. They simply can't understand why floating a river should be a 
crime in these parks, while it is supported as a great way to 
experience the natural world virtually everywhere else.
    Despite efforts over the years by American Whitewater to have 
boating managed like other similar activities in these parks--the ban 
persisted. With the 2009 Wild & Scenic designation of the upper Snake 
River and its tributaries--which includes several rivers in Yellowstone 
and Grand Teton National Parks--a new river management plan was 
required and thus a new opportunity to consider suitable uses for the 
resource. Again despite a flood of comments in favor of paddling, 
including recommendations by river stewardship organizations that 
paddling be considered, and the requirement by law that all kinds of 
use be looked at, paddling was explicitly excluded from the draft 
Comprehensive River Management Plan. The authors of the plan cited the 
unusual 1950's Federal regulations that ban paddling, claiming that 
these rules made considering paddling a moot point, since they were 
forbidden from allowing the activity. Park managers do not have the 
discretion to manage these Parks consistent with modern National Park 
Service policies, priorities, and practices because of these outdated 
and unusual Federal rules.
    It is clear that these 1950's regulations are outdated and the 
National Park Service needs to manage with modern methods and 
standards. Yellowstone visitors no longer watch the bears at open 
dumps, the National Park Service no longer stock exotic fish or engage 
in other outdated management practices. Changes to park management can 
improve visitor experiences and natural resource protection. The 
paddling prohibitions in the Park need to change.
    While I do not feel that opening every river all the time in both 
parks is the correct course of action, I support the active management 
of paddling in Yellowstone and Grand Teton and feel there are many 
stretches that can be opened with minimal impacts. There is already a 
boat registration system in place for both parks and all non-motorized 
boats are required to have a permit. Boat registration requires a fee, 
is a source of revenue for the parks and provides boaters with the park 
boating regulations. Backcountry use is already tightly controlled and 
paddlers would need to adhere to current regulations as hikers and back 
packers do. There are also numerous simple templates for river 
management from other western rivers that flow through sensitive areas 
which would allow paddlers to be easily, cheaply, and sustainably 
managed just as hikers are.
    It is important to recognize that managers have many tools to 
manage paddling and other forms of recreation. This is not an all or 
nothing issue. The paddling community appreciates and supports well-
supported limits on river use and here again, there are many great 
examples of river management from popular rivers in the region like the 
Middle Fork of the Salmon, the Selway, Yampa or Green. Furthermore 
there is no need for additional infrastructure to facilitate paddling. 
Trails and parking already exist for access and kayaks or pack rafts 
can be easily carried.
    I realize that legislation regarding management issues, like 
litigation, is a last resort and it should only even be considered when 
there has been a dramatic failure in the administrative process. The 
60+ year paddling ban, and recent refusal to consider paddling, is 
evidence that just such a failure has occurred in Yellowstone and Grand 
Teton. I do not like the idea of legislating this issue, but given that 
antiquated Federal rules are preventing modern management planning, the 
paddling community is at a loss as to how else to move forward.
    In this case, the NPS feels they are constrained by roughly 60-
year-old Federal regulations that are no longer serving their purpose. 
It makes sense to grant the Parks the discretion to manage with the 
full suite of modern management tools. By getting rid of the boating 
ban, an old regulation that ties the hands of the current park 
managers, it is not taking away the authority to manage but rather 
restoring it. We greatly appreciate Representative Lummis for seeking 
to remedy this problem with the River Paddling Protection Act, and 
would likewise consider any ideas the National Park Service may offer.
    In discussions with my colleagues in the conservation and paddling 
communities about this legislation, it is evident that regardless of 
what Congress does concerning this issue, the National Park Service 
must retain their typical discretion to protect the natural resources 
of the Parks through fair, reasonable, and well justified limits on all 
forms of recreation, including paddling. The paddling community is not 
seeking special treatment. Paddlers simply want to be considered like 
other similar low-impact, human-powered, wilderness-compliant visitors. 
Likewise, we do not seek priority over the preservation of natural 
resources. Quite the opposite, we feel strongly that the conservation 
of natural resources should be granted priority over all forms of 
recreation. We are confident that the parks can support sustainably 
managed paddling opportunities in concert with other existing similar 
uses.
    It is also vitally important that the final language of this bill 
be very specific to ending the antiquated boating ban in Yellowstone 
and Grand Teton and that this bill not be misconstrued or set a 
precedent that may apply to other parks or other uses in the future.
    When we consider human-powered recreation, particularly in a Nation 
that is currently striving to improve the fitness of our citizenry, it 
is a sad statement that the vast majority of all visitors to 
Yellowstone experience the park only from their cars, as a roadside 
attraction. Most rarely venture beyond the boardwalks. Getting people 
outdoors and out of their cars is important. Whether it is this 
legislation, a modified version, or NPS action, it is important to 
encourage the sustainable and healthy exploration and enjoyment of our 
Parks via ancient, fun, and low-impact means.
    Both Yellowstone and Grand Teton National Parks have highly adept 
land managers as their Superintendents. Both the departing Mary Gibson 
Scott of Grand Teton and Dan Wenk of Yellowstone have years of 
experience dealing with challenging management issues. I ask that you 
help them with this issue by ending the boating ban and allow both 
parks to welcome Americans to once again experience two of our Nation's 
most prized National Parks through sustainably managed paddling.
    I encourage you to move forward with the River Paddling Protection 
Act. The bill would address a very real problem that has hindered 
healthy outdoor recreation for decades. I hope this bill continues to 
be vetted, discussed, and if needed improved to meet the conservation 
and recreation goals I have outlined in this testimony.
    Thank you for the opportunity to provide this testimony and to 
appear before this subcommittee. Please feel free to contact me if you 
have any questions.

                                 ______
                                 

            Letters Submitted by Aaron Pruzan for the Record

                                     Teton Adaptive Sports,
                                                   October 1, 2013.
Aaron Pruzan
Rendezvous River Sports
P.O. Box 9201
Jackson, WY 83002

    Dear Aaron,

    Thanks so much for your support again this summer of Teton Adaptive 
Sports' Adaptive Paddling Program. Your donation of instructors, 
kayaks, stand up paddleboards, and accessories for our 2 adaptive 
paddling days on String Lake was a value of $2800.00. Your generous 
gift provided boating opportunities for over 35 individuals with 
disabilities, along with family members, and volunteers. Your 
continuing commitment to our community is greatly appreciated. TAS 
Adaptive Paddle Days are by far the most popular outings we offer. We 
could not offer these experiences without your help. No goods or 
services were exchanged for this donation.

            Best regards,
                                                Kurt Henry,
                                                Executive Director.

                                 ______
                                 

                                     Honoring Our Veterans,
                                                 Moran, WY,
                                                 November 18, 2013.

    Honoring Our Veterans has been offering OEF/OIF combat wounded 
veterans rehabilitative/recreational therapy in Jackson Hole, Wyoming 
since 2008. To date, we have helped 106 combat wounded Marines, 
Soldiers, and Navy Seabees heal and move forward with newfound 
confidence and hope. We are able to offer these programs through the 
partnerships we have built with businesses and organizations that have 
expertise in outdoor recreation. The instruction and guidance of 
Rendezvous River Sports is critical to our ability to operate.
    We offer four weeklong sessions each year. One of the most popular 
is the Water Sports Therapy Session. Rendezvous River Sports/Jackson 
Hole Kayak is the key player in the creation and implementation of this 
program. Each Water Sports Therapy session consists of seven to ten 
combat wounded warriors. Through the generosity of Rendezvous River 
Sports, we offer our most popular activity; an instructional rafting 
day on the Snake River. In addition to rafting, we also offer an 
instructional paddle day on String Lake in Grand Teton National Park. 
The special use permitting process enables us to utilize Grand Teton 
National Park in this manner. Rendezvous River Sports does such a good 
job caring for our important water resources, and with the quality of 
their instruction, the Park is always happy with how we conduct our 
sessions.
    We find the wounded veterans we can help by working with the 
different VA Medical Centers from across the country. We also work with 
Brooke Army Medical Center's Warrior Transition Unit and the Marine 
Corps Wounded Warrior Battalion Detachment West.
    Honoring Our Veterans is grateful to have the support of Rendezvous 
River Sports. Without their involvement and continued dedication to our 
wounded veterans, we would not be able to offer these important healing 
programs to our Nation's heroes.

            Thank you!
                                            Sandra Bockman,
                                                Executive Director.

                                 ______
                                 

                           Jackson Hole Kayak Club,
                                               Jackson, WY.
    To Whom It May Concern:

    The Jackson Hole Kayak Club is very excited about a potential lift 
of the historic ban on boating in both Grand Teton National Park and 
Yellowstone National Park. The Jackson Hole Kayak Club is a non-profit 
organization based in Teton County Wyoming that provides youth the 
opportunity to safely enjoy the waterways of the Greater Yellowstone 
area through youth programs, competitive events, conservation and 
education. The JHKC has been teaching youth how to paddle since 1996, 
and the hundreds of alum will attest that the JHKC programs teach more 
than just learning how to kayak. The programs teach a love of the 
outdoors, a passion for conservation, and a deep respect of both the 
power and beauty of our natural rivers.
    Our coaches and athletes are all enthusiasts who have dedicated 
part of their lives to follow their passion for paddling. This passion 
has taken many of our athletes and coaches around the world to explore 
new rivers, yet we are not allowed to explore the two national parks 
with amazing whitewater opportunities in our backyard. The historic 
boating ban is outdated, It is time to update the regulations so they 
reflect the actual impacts of paddling on the rivers.
    Paddling is a very low impact activity used by the first explorers 
to the Greater Yellowstone region. It is potentially the least 
impactful way of traveling through an environment because boaters leave 
no trace on the water. The Jackson Hole Kayak Club feels strongly about 
conservation, and wants to protect the natural state of the rivers in 
all of the National Parks. That is why we feel it is important for the 
NPS to manage each river based on its potential user impacts and 
regulate use based on these impacts.
    The Jackson Hole Kayak club believes that paddling is a healthy 
activity that deserves the same management plan considerations as any 
other recreational activities in the park. We hope to see the outdated 
ban lifted and new science-based regulation put into place. The youth 
of our community and the country will greatly benefit from these 
decisions. Thank you for your consideration in passing the bill to 
remove the boating ban in GTNP and YNP.

            Sincerely,
                                           Jonathan Souter,
                    President of the Jackson Hole Kayak Club Board.

                                 ______
                                 
    Mr. Bishop. Thank you.
    I suppose he gave the fish back when he got done with his 
kayaking, right?
    Mr. Young, I would ask you if you would introduce to us now 
the other number that was the same except the numbers reversed, 
H.R. 3294, if you would please.
    Mr. Young. Thank you, Mr. Chairman. I appreciate you and 
the Ranking Member for holding this hearing and this 
legislation, and all of these pieces of legislation.
    The purpose of this legislation is to jumpstart a 
discussion about the failure of our Federal land management 
agency to officially manage our public lands. Further, this 
bill suggests an alternative management regime that would 
provide State management agencies an opportunity to do better.
    Time and again before this committee we have heard 
testimony from Governors' State managers about their continued 
ability to outperform their Federal counterparts. States have a 
proven record of success in managing public lands. For example, 
Alaska manages an array of wildlife resources and their 
habitat, as well over three million acres of State parks, 
forests, historic sites, and networks of trails and public use 
cabins, et cetera.
    Regardless of the perspective of my proposed solution, I 
think we can all agree that Federal management is both 
expensive and it is not working well. H.R. 3294 would allow the 
Federal Government the ability to manage Federal lands through 
cooperative agreement with the States after they provide 50 
percent cost share of the management cost.
    Again, I thank you for this, Mr. Chairman. May I say 
respectfully for the Park people, you run your parks terribly, 
especially in Alaska. You run them for the tourists and the 
Park Service people. You prohibit Alaskans from using the parks 
for what they were originally intended for: hiding, not without 
a permit; hunting, definitely not; canoeing, paddling, no, 
because you cannot get a permit.
    And you have money being spent, and we are working on this, 
money being spent by the billions of dollars on the Park 
Service for Taj Mahal tourist centers, for big park 
headquarters, for workers who do nothing but prevent Alaskans 
from enjoying that land that was God-given to them, and the 
Forest Service is equally as bad. The Forest Service is 
probably one of the worst.
    Our forests are in the worst condition they have ever been 
because of the Forest Service action of not managing forests: 
fires, pollution of the air, no management, loss of fiber, all 
related to the Forest Service.
    Yet when I drive by a Forest Service parking lot, I see 27 
brand new, Mr. Chairman, Chevrolet trucks sitting there. I see 
six boats, big boats, with 250 horsepower motors on them. Then 
I see 27 kayaks in the Forest Service's parking lot.
    They are running these forests now as, I would say 
respectfully, as parks, that do no management at all. The Park 
Service has outlived its time if you keep managing it the way 
it is. It is for the people. It is not for the Park Service 
agency, wearing their uniforms with SWAT jackets on, pistols on 
their hips now, walking around like they are the Gestapo.
    Mr. Chairman, I can say respectfully I see this government 
today as King George and his lords around him. Forget the 
servants and the serfs. American people have become the serfs 
because we have to respond to the agencies, and the Park 
Service and Fish and Wildlife, the Interior Department are 
fraught with not considering the people, the people that 
deserve a right especially in the States.
    This will give the opportunity for the States to manage 
lands efficiently for not only tourists but for the State 
people that live there.
    I know you are just a lower lying person here right now, 
but you tell your Park Service people they stink, and they have 
gotten worse over the years, and I have been here 40 years. I 
have seen what has happened to the agencies: non-acceptance of 
people individually. Do not bother me. I am the Park Service. 
Do not bother me. I am the Fish and Wildlife. I am the 
government. You have no right to ask me. In fact, I am going to 
refuse to listen to you.
    That is not right. That is not the America we were built 
on. That is not the thing that we originally established the 
parks for. Go back through the history of all our parks and 
Teddy Roosevelt. We said on those parks we would preserve it, 
but hunting was allowed. You do not allow hunting on parks 
anymore. That is bad. You do not allow any activity by the 
individuals. That is bad.
    But we can have our airplanes, and we can have our snow 
machines, and we can have our boats because we are the 
government. That is what is wrong with our government today. 
You have forgotten the people because you live within the 
castle walls, the castle walls of King George, the President of 
the United States who believes he is a monarch.
    Shame on America. Let us wake up to really what has 
happened to us. With that I yield back.
    Mr. Bishop. Thank you.
    Other than that, you do not have a strong opinion.
    Mr. Young. No, I do have a strong opinion.
    Mr. Bishop. OK. Dr. Nelson, I appreciate you being here. I 
am perhaps giddy because I have enjoyed reading your book, but 
you are now recognized for 5 minutes to present your testimony.

STATEMENT OF DR. ROBERT H. NELSON, PROFESSOR, SCHOOL OF PUBLIC 
                 POLICY, UNIVERSITY OF MARYLAND

    Dr. Nelson. My name is Robert Nelson. I am a professor in 
the School of Public Policy at the University of Maryland, and 
a Senior Fellow of the Independent Institute.
    From 1975 to 1993, I worked as a Senior Economist in the 
Office of Policy Analysis within the Office of the Secretary of 
the Department of the Interior, and based on this experience 
since the 1980s, I have written three books and many scholarly 
and also many more popular articles about the system of public 
land management by the Forest Service and the BLM. So it has 
given me a perspective that this particular piece of 
legislation is obviously, from the comments we have already 
heard, raising fundamental questions about the whole management 
regime in contrast to some of the other bills, which are quite 
particular in their orientation.
    I am encouraged by the introduction of H.R. 3294, the 
State-Run Federal Lands Act. There has been a virtual consensus 
since the 1990s among public land experts on a bipartisan basis 
that the Federal land management system is not working well. 
The inability to deal effectively with forest health and 
Western wild land fire in recent years is only the most visible 
symptom of a wider set of public land management dysfunctions.
    Major change of some kind is, therefore, desperately 
needed. The relationship between the Federal Government and the 
Western States for the management of the public lands is based 
on outmoded ideas that are now 100 years old. This relationship 
needs to be rethought in light of contemporary realities. If we 
can avoid partisan acrimony, H.R. 3294 can valuably help to 
open the discussion.
    I specifically like the idea in the bill of developing a 
Federal-State relationship for significant areas of public 
lands in which the Federal Government retains the underlying 
land ownership and certain broad guidance responsibilities, but 
the main management function is devolved to new administrative 
units at the State level and in some cases, which is not made 
clear in the legislation but I think it would allow for it, 
even to lower levels of government, such as counties and 
municipalities.
    I would also recommend in other cases additional forms of 
devolution that would make provision for giving new 
administrative responsibilities to non-governmental groups 
organized at the local level that would have a Board of 
Directors. This would build on the widespread development in 
recent years of self-organized, local advisory groups in the 
West seeking to work with the Forest Service and BLM. This past 
advisory role might now shift from being merely advisory to 
taking on suitable direct administrative functions.
    Seeking to respond to increasing evidence of public 
discontent, the Congress in the 1970s enacted a wave of major 
public land legislation, including the Resources Planning Act 
of 1974, the National Forest Management Act of 1976, and the 
Federal Land Policy and Management Act of 1976. The Congress 
failed, however, to resolve the large tensions between the 
progressive era ideal of management by government experts that 
still retains significant influence in a new, post-1990s 
concern to give non-government organizations and popular 
democracy a much larger decision role.
    The mandated Federal land use planning from the 1970s 
legislation soon became bogged down in public controversy and 
widespread litigation. As has been the case in many areas of 
American governance in recent decades, the Federal judiciary 
stepped in to fill the vacuum. This increasing judicial role 
was a major factor in a radical 1990 shift in the goals of 
public management, the move to a new philosophy of ecosystem 
management focused on environmental goals, such as 
biodiversity, replacing the previous longstanding public land 
management philosophy of multiple use and sustained yield.
    Ecosystem management has been no more successful, however, 
in providing a clear direction for public land management than 
the ineffective land use planning spawned by the 1970s 
legislation. By the 1990s, the 1970s management framework was 
judged a failure on a bipartisan basis at conferences and other 
meetings of public land experts to describe the workings of the 
Forest Service and BLM land management.
    The most important role for the Congress at present is to 
create a statutory basis for opening up a much wider range of 
devolved land administrative alternatives and to set the terms 
for review and approval and subsequent oversight of these 
alternatives as they are put into place. There should be ample 
opportunities not only for State governments, but also local 
governments and local citizen groups to propose initiatives 
that involve devolved public land administration arrangements 
and a process by which these proposals can be fairly and 
expeditiously reviewed.
    H.R. 3294 is an important step in that direction.
    [The prepared statement of Dr. Nelson follows:]
  Prepared Statement of Robert H. Nelson, Professor, School of Public 
                     Policy, University of Maryland
       concerning h.r. 3294, the ``state-run federal lands act''
    My name is Robert H. Nelson. I am a professor in the School of 
Public Policy at the University of Maryland and a senior fellow of The 
Independent Institute. From 1975 to 1993 I worked as a senior economist 
in the Office of Policy Analysis within the Office of the Secretary of 
the Department of the Interior. Based partly on this experience, since 
the 1980s I have written three books and many scholarly--and also more 
widely accessible--articles about the system of public land management 
by the Forest Service and the BLM.
    I am pleased to be able to testify today on such an important 
subject. The public lands are an important part of the history of the 
United States, dating to the Louisiana Purchase, the Homestead Act and 
the railroad land grants in the nineteenth century and then to the 
creation of the Forest Service, the Minerals Leasing Act, and the 
Taylor Grazing and Grazing Service (a forerunner to the BLM) in the 
first half of the twentieth century. The Federal lands still represent 
today 28 percent of the land area of the United States, including 
around 50 percent of all the land in the western States.
    I should say at the outset that I am encouraged by the introduction 
of H.R. 3294, the ``State-Run Federal Lands Act.'' For reasons that I 
will briefly review, there has been a near consensus since the 1990s 
among public land experts that the Federal land management system is 
not working well. The inability to deal effectively with forest health 
and western wildland fire in recent years is only the most visible 
symptom of a wider set of public land management dysfunctions.
    Major change of some kind is therefore desperately needed. The 
relationship between the Federal Government and the western States for 
the management of the public lands is based on outmoded ideas that are 
now 100 years old. This relationship needs to be rethought in light of 
contemporary realities. H.R. 3294 can valuably help to open the 
discussion.
    Especially promising is the proposal for a Federal-State 
relationship for significant areas of public lands in which the Federal 
Government retains the underlying land ownership, and certain broad 
oversight responsibilities, but the management function is devolved to 
the State level--and in some cases probably even lower to the local 
government level. I would also recommend in other cases making 
provision for devolving management responsibilities to non-governmental 
citizen groups organized at the local level and including a Board of 
Directors of the group. This would build on the widespread development 
in recent years of self-organized local advisory bodies in the West 
seeking to work with the Forest Service and BLM in hopes of overcoming 
some of their large management problems.
    At this point I review briefly some of the history that has brought 
us to our current state of such deep dissatisfaction with public land 
management. In this long history, the management objective of the 
Federal Government has changed radically three times. In the nineteenth 
century, the goal was to dispose of the Federal lands which resulted in 
the transfer of 1.3 billion acres to private parties and to the States. 
The States themselves received a total of 328 million of these acres.
    In the progressive era around the beginning of the twentieth 
century, the Federal goal shifted to one of making the management of 
the lands more efficient in the service of the public interest. As it 
was believed at the time, this could best be accomplished by retaining 
the remaining public forests, rangelands and other lands in Federal 
ownership for their management by government experts.
    By the 1970s, there was ample evidence that this progressive-era 
vision was failing. Mostly trained to maximize the uses of the lands, 
the government experts were paying insufficient attention, many people 
thought, to the environmental amenities of the lands. Partly owing to 
the politicization of the management of public lands, leading 
economists such as Marion Clawson, a former director of the BLM, then 
located at Resources for the Future, sharply criticized the economic 
inefficiency of Federal land management. Others pressed for a more 
democratic system of decisionmaking that would include a greater role 
for public participation.
    Responding to these public concerns, Congress in the 1970s enacted 
a host of major public land laws including the Resources Planning Act 
of 1974, the National Forest Management Act of 1976 and the Federal 
Land Policy and Management Act of 1976. At the heart of the new 
legislation were requirements for a more comprehensive and effective 
systems of land use planning for the national forests and the BLM 
lands, including both the writing of formal written plans and 
environmental impact statements.
    The Congress had failed, however, to resolve the large tensions 
between the still influential progressive ideal of management by 
government experts and a new post-1960s concern to give non-government 
organizations and popular democracy a much larger role in management 
decisions. Federal land use plans soon became bogged down in public 
controversy and litigation. As they emerged after many years frequently 
in their preparation, they typically failed to provide an adequate 
basis for decisionmaking to address the most pressing current public 
land problems.
    As has been the case in many areas of American governance in recent 
decades, the Federal judiciary stepped in to fill a vacuum. This 
increasing judicial role was a major factor in the third radical shift 
in the goals of public land management, the move to a new philosophy of 
ecosystem management focused on environmental goals such as 
biodiversity, replacing the previous longstanding public land 
management philosophy of multiple use and sustained yield. This shift 
occurred after 1990 and was closely associated with the spotted owl 
controversy in the Pacific Northwest and the large changes in land 
management that occurred there on the national forests and BLM lands.
    Ecosystem management was troubled, however, by an inability to 
resolve fundamental tensions between the environmental goal to preserve 
nature in a wild state and continuing strong public demands to put the 
lands to good use. By the 1990s, the word ``dysfunctional'' was 
increasingly being heard at conferences and other meetings of public 
land experts with respect to the workings of Forest Service and BLM 
land management. The strong criticisms in those days were heard on a 
bi-partisan basis including many Democrats such as Frank Gregg, the 
former director of the BLM in the Carter administration, Jack Thomas, 
the first chief of the Forest Service in the Clinton administration, 
and Daniel Kemmis, a prominent western public intellectual who had also 
served as a Democratic Party leader at the State level in Montana.
    Congress, however, failed to address the large management problems 
on the public lands that were becoming evident by the 1990s. No major 
public land legislation has passed since the 1970s. The courts 
continued to play an active role but the slow and cumbersome judicial 
procedures often merely aggravated the public land management problems.
    The Forest Service in 2002, almost in desperation, pleaded to 
Congress for relief from its troubled circumstances, as described in an 
agency published document, The Process Predicament, declaring that it 
was operating ``within a statutory, regulatory, and administrative 
framework that has kept the agency from affectively addressing rapid 
declines in forest health,'' including the development of explosive 
wood fuel buildups on many western national forests. Writing about the 
Forest Service, Sally Fairfax, a leading student of the public lands at 
the University of California at Berkeley, would ask in 2005 about 
``what to do when an agency outlasts its time.''
    As recently as an October 2013 report, Professor Jay O'Laughlin, 
Professor and Director of the College of Natural Resources Policy 
Analysis Group at the University of Idaho, wrote that ``large areas of 
Federal lands in the western States are currently at high risk of 
severe wildfire and have many insect and disease problems, indicating a 
significant decline in forest health and resilience,'' recommending 
more active management measures but wondering how they might be 
accomplished under the existing public land management regime.
    As noted, H.R. 3294, the subject of the hearing today, offers an 
opportunity to revisit the historic Federal-State relationship for the 
management of the public lands in the West. I have long proposed that 
the Federal lands be divided into three categories. Some public lands 
are of clear national significance where a large Federal role is most 
appropriate but I would estimate these as probably no more than 20 
percent of the national forests and BLM lands.
    A much larger area of public lands is of primarily State and local 
significance, most heavily used by hikers, ranchers, hunters and other 
people from the surrounding area. These are the lands for which a basic 
rethinking of the Federal-State relationship is most necessary. On the 
western public lands of mainly State and local significance, the types 
of decisions made are those that elsewhere in the United States would 
be made by State and local governments. It is difficult to understand 
why the Federal Government is still spending its scarce resources to 
decide the times and places where federally determined numbers of cows, 
owned by local ranchers, can be grazed. The Federal administrative 
costs of all this greatly exceed any Federal revenues returned by 
grazing fees.
    Other public lands serve mainly commercial purposes such as the 57 
million acres of Federal mineral rights below privately owned surface 
lands (about 2.5 percent of the United States). The O&C lands in 
Oregon, owing to their unique history, were long managed by BLM for 
mainly timber harvesting purposes, providing large revenue streams to 
local counties that are now much missed. Some of the commercially most 
valuable public lands might be privatized outright. This might also 
include an expanded program of land sales for those current public 
lands with a high private value for real estate and other developmental 
purposes, including particularly high quality sites for more intensive 
recreational development.
    H.R. 3294 is at present an outline of a plan for rethinking the 
Federal-State relationships on the public lands. But the States, 
working with their local governments, are better positioned to make the 
changes in public land management that are now so greatly needed. In 
recent years, it has often been State governments, not the Federal 
Government, that have taken the key leadership roles in American 
government efforts to deal with key policy problems and issues.
    With a greater State role, there would likely be differences in 
land management approaches from one State to another, appropriately 
reflecting their diverse State circumstances, as compared with the 
current one-size-fits-all Federal system. States could also learn from 
a trial and error process if each of them had greater freedom of land 
management experimentation.
    It is a little known fact that the State with the highest 
percentage of State-owned land is New York State, equal to 37 percent 
of its total land. In 1894, New York State exercised its management 
prerogatives to set aside Adirondack Park, now equal to 6 million 
acres, 2.6 million owned by the State, setting a management policy to 
keep these lands ``forever wild'' long before the wilderness concept 
was introduced to the Federal lands. Other eastern States with large 
acreages of State owned land include New Jersey (16 percent), Florida 
(14 percent) and Pennsylvania (13 percent), more than any western State 
except Alaska (29 percent). It is ironic that eastern States have often 
been reluctant to extend a similar prerogatives to develop their own 
internal State land management strategies to western States.
    In proposing the administrative devolution of public land 
responsibilities, a useful analogy might be the establishment of 
charter schools in large public school systems that often serve the 
disadvantaged. A growing body of research from leading scholars at 
universities such as MIT, Harvard and Princeton is concluding that the 
better-run urban charter schools, free to pursue educational 
innovations previously unavailable in traditional public school 
systems, have been achieving remarkable gains in student achievement 
and parental satisfaction. The current Secretary of Education is among 
those who agree with this assessment.
    Perhaps we should be similarly flexible and innovative in trying 
out land management innovations on the public lands that might be 
analogous in many ways to charter schools. Local boards of directors, 
like those of charter schools, could have wide latitude in hiring 
staff, contracting out work, and other important management matters. 
While H.R. 3294 is an encouraging step, there are many possible 
approaches to public lands administrative devolution and many details 
would need to be resolved for each such approach, possibly on a State 
by State basis.
    The most important role for the Congress at present is to create a 
statutory basis for opening up a much wider range of devolved public 
land management alternatives and to set the terms for subsequent 
oversight of these alternatives as they are put into practice. There 
should be opportunities not only for State governments but also local 
governments and private local non-governmental groups to propose 
innovative devolved land management strategies and a process by which 
these proposals can be fairly and expeditiously reviewed at the Federal 
level.
    The creation of the existing public land system 100 years ago was 
predicated on an assumption that clear goals and policies could be 
established for the whole Nation, including the uses of the public 
lands. That was the time of the American ``melting pot'' when common 
national values were taken for granted. Today, however, the American 
Nation has become more diverse. When core values are being contested, 
it is more difficult to establish nationwide goals and policies, an 
important contributing factor to the large current problems of Federal 
land management. Devolution of greater administrative responsibilities 
to State-level bodies would allow for greater diversity in land use 
goals and policies, reflecting the actual greater diversity of the 
United States at present.
Additional Comments on H.R. 3294
    The title of the bill, ``State-Run Federal Lands Act,'' perhaps 
might be changed. Some people might read ``State-run'' to mean 
``government-run.'' Also, while the States would necessarily play a 
prominent role in any devolution plans, other public and nongovernment 
groups within the State might also be significantly involved, proposing 
appropriate boundaries for land units, developing a plan for their 
devolved administration, and ending up with many of the final 
management responsibilities. An alternative possible title might be the 
``Federal Lands Administrative Devolution Act.''
    Including all the Federal land agencies might be too much for one 
bill. It might be better to have separate bills for the national forest 
system and the BLM lands. The National Park System is a special case, 
combining national treasures such as the Grand Canyon and Yellowstone 
with some national park units of minor national significance. If one 
Federal land agency had to be chosen to pioneer new administrative 
devolutionary approaches, it might be the Forest Service, the oldest of 
the Federal land systems, and the one currently experiencing many of 
the most severe problems of adaptation to new land use demands and 
forest health.
    The development of innovative proposals for public land 
administrative devolution does not need to be limited to State 
governments. Others within the State, public and non-governmental, 
might be able to devise their own proposed management plans and 
devolution strategies, perhaps submitting them directly to Federal 
officials and negotiating the details with these officials (with 
overall State approval of such efforts).
    Where the State would assume the primary administrative role 
itself, the State would be the one to submit directly a land 
administration devolution plan. For example, States might propose that 
State trust land administrators add new manage responsibilities for 
current Federal lands--with some arrangements provided for the 
allocation of some portion of the revenues from these lands to the 
trusts. Given the importance of energy minerals, States might want to 
take direct responsibility for the devolved administration of such 
critically important lands through some new State administrative 
mechanism. (It is questionable that a game changing event such as the 
oil shale development of the Bakken formation in North Dakota could 
ever have occurred within the current federally run system of 
management for the public lands.)
    Rather than one instrument for administrative devolution as 
proposed in H.R. 3294, the use of a ``cooperative agreement,'' it might 
be appropriate to offer a tool kit of possible administrative 
devolution instruments, including separate provisions and procedures in 
the law for various forms of devolution to States themselves, to local 
governments, and to local non-government organizations. The legislative 
provisions could then be tailored more specifically to the forms and 
circumstances of each type of administrative devolution instrument.
    Some State proposals for public land administrative devolution 
might be so large and important that they should be approved by the 
Congress itself (rather than the relevant Secretary). Other proposals 
might be more routine and could be handled within the executive branch 
alone. Provision might be made in the law for such a distinction and 
separate approval procedures established.
    After administrative devolution, the Federal Government would no 
longer directly manage the lands. However, it would be appropriate for 
the Federal Government to set some certain broader goals and standards 
for the devolved administration. Environmental ``sidebars'' of 
performance, for example, might be established. There might be formal 
Federal reviews say every 5 or 10 years. In cases of severe 
mismanagement, the Federal Government might step in immediately to 
cancel the devolution agreement. Such provisions should probably be 
spelled out more explicitly in the legislation.
    The issue of existing rights in public lands should probably be 
more explicitly and fully addressed in the legislation. What would 
happen, for example, to rancher grazing permits that traditionally have 
always been renewed? How much if any discretion would State, local or 
non-governmental administrators have in altering the terms of livestock 
grazing. If a non-government body took over the responsibility, for 
example, for administering a wilderness area, how much discretion would 
it have in implementing wilderness use policies?
    Given the very large expenditures currently being made in the West 
for fire fighting, this important area of Federal-State relations 
probably should be addressed specifically in the legislation. How would 
fire fighting responsibilities be handled for newly devolved 
administrative units? How would the costs be shared? What would be the 
continuing Federal Government role in fire fighting in the West?
    It might prove difficult to fully resolve some of these issues on a 
general basis in a short time. The first steps of public land 
administrative devolution thus might have to occur more incrementally. 
Perhaps somewhat in the manner of a wilderness designation approval 
package, State governments might be authorized to put together packages 
of administrative devolution plans for specific areas and specific 
kinds of devolved administrative bodies, and to submit these to the 
Congress for its negotiation and approval on a State by State basis.

                                 ______
                                 

    Mr. Bishop. I thank you.
    And I will turn to the committee for questions of any of 
the witnesses. Mr. Young, do you have questions?
    Mr. Young. Mr. Nelson, I have read your testimony, and of 
course, you are speaking my language, and I do appreciate that 
because a Park Service, bless your heart, and a Fish and 
Wildlife and a BLM have done a terrible job of management, 
period, and communicating with one another.
    This bill is just a thought frame. I like that you brought 
up the fact it may not just be the State. There could be local. 
You are thinking local counties or boroughs or something being 
involved.
    Dr. Nelson. And even non-governmental organizations.
    Mr. Young. It would be non-government?
    Dr. Nelson. You could think of it as like a charter school, 
but on a national--so the charter school is still in a 
framework of public education, but it is independent in terms 
of hiring and firing and all kinds of other things, and it has 
a Board of Directors, and so you could have something like that 
on the public lands, I think, and it would be a way of opening 
the whole system up, but without trying to take on the 
fundamental challenge of the whole question of Federal land 
ownership in the West, which is so contentious that if you 
challenge that, it would immediately become completely 
polarized.
    Mr. Young. Well, under my bill, I do not propose that they 
relinquish the ownership, but they relinquish the management.
    Dr. Nelson. Right.
    Mr. Young. So it is more of a party.
    Dr. Nelson. I am agreeing with your bill in that respect, 
but you are proposing mostly to do it through cooperative 
agreements.
    Mr. Young. Yes, yes.
    Dr. Nelson. It is not really clear, but it sounds like 
reading your bill that you are thinking that it is mostly going 
to be cooperative agreements between the State and the Federal 
Government. And I am suggesting going beyond that and allowing, 
you know, arrangements for counties and municipalities, but 
even going beyond that and creating things that would be a 
public land equivalent of, say, a charter school. That is, it 
would have a Board of Directors. It would maybe have 
recreationists and environmentalists, economists and whatever. 
It would still be within the public framework, and it would 
still get some public money, but it would be free of many of 
the limitations of public land management that exist at 
present.
    Mr. Young. Well, I am glad he brought this up, Mr. 
Chairman, because in our areas in Alaska, again, it is the 
management of the parks with no input from the local people, 
period. In fact, we moved the one park lady there because she 
was totally obnoxious, moved her out because no input, and yet 
the Native corporations, which are adjacent to and around these 
parks, they do not hire anybody out from Alaska, you know, and 
let them be part of the management system where they are 
ignored now, and yet they have been living there for centuries, 
and they have the expertise to do it.
    This is what I envision so that there is more of an 
understanding what the parks are for.
    Dr. Nelson. If I could.
    Mr. Young. Yes.
    Dr. Nelson. So for a suitable national park unit in Alaska, 
you could envision a system where there would be a Board of 
Directors appointed to oversee the management of that national 
park. The hiring process would be freed from the standard 
bureaucratic Civil Service that makes it extremely difficult 
and it takes forever and so forth.
    Contracting would be freed from the normal Federal 
contracting rules. You would be freed from some of the normal 
environmental impact statement requirements and land use 
planning, which are mostly just an invitation for litigation. 
But it would still be a national park.
    And so the Board of Directors of the national park would 
hire the supervisor of the national park. So that person would 
be hired through this. The Board would be the representative 
board involving various affected parties, but it would 
basically be mostly local people or State people.
    Mr. Young. And this is what I am looking for.
    Mr. Chairman, I know I have got letters from the park 
conservative group and the park agency itself, but the system 
is not working.
    Dr. Nelson. I think there is general agreement. I mean, 
frankly I have been going to conferences for 20 years, and not 
as many recently because not that much has been happening, but 
people have been saying, very well recognized scholars, people 
who study the public lands, former public land administrators. 
I mean even I have been in a conference with Jack Ward Thomas 
and, you know, not a Republican. He would not use your 
language, but he would basically say the system is not working, 
and the Forest Service says the system is not working.
    So there is agreement on that. The question at this point 
is: how can we get past the gridlock and the partisanship and 
everything else when there actually is substantial bipartisan 
agreement out there that the current system is not functioning.
    Mr. Young. Thank you.
    Mr. Bishop. OK. Thank you.
    Mr. Grijalva.
    Mr. Grijalva. Thank you.
    Mr. Chairman, if there is no objection, three 
communications, National Parks Conservation Association (NPCA) 
on all of the legislation before us; Greater Yellowstone 
Coalition; and 14 other environmental organizations for the 
record.
    Mr. Bishop. Without objection.
    [The communication from NPCA, Greater Yellowstone Coalition 
and 14 environmental organizations follows:]

      Letters Submitted for the Record by Representative Grijalva

    National Parks Conservation Association (NPCA),
                                            Washington, DC,
                                                 November 20, 2013.

Hon. Raul Grijalva, Ranking Member,
House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

Re: NPCA's Positions on Legislation at November 21st Hearing

    Dear Members of the House Public Lands and Environmental Regulation 
Subcommittee:

    Since 1919, the National Parks Conservation Association (NPCA) has 
been the leading voice of the American people in protecting and 
enhancing our National Park System. On behalf of our more than 800,000 
members and supporters nationwide, I write to urge you to consider our 
positions on the following three bills they come before the 
subcommittee tomorrow, November 21.

    H.R. 3294, the State-Run Federal Lands Act and H.R. 3311, Providing 
Access and Retain Continuity (PARC) Act--NPCA strongly opposes these 
bills. The funding and protection of our national parks is a 
fundamental responsibility of the Federal Government. The generalized 
failure of Congress, which has the power of the purse, to meet its 
fundamental responsibilities should not be used as an excuse to attempt 
a State takeover of national parks or other Federal public lands. It 
has been 3 years since Congress funded national parks through any 
measure other than a continuing resolution. What the American people 
deserve and our national parks need is a functioning Federal budget 
process, not measures that would undermine the legacy we leave to our 
children and grandchildren through strongly protected national parks.
    National parks are protected under a suite of bedrock Federal 
environmental, natural and cultural resource laws, which together 
provide for the protection of nationally important resources protected 
by national parks. The National Park Service is the appropriate 
governmental entity to protect our parks and to provide for the safety 
and enjoyment of park visitors. National Park Service personnel, not 
State officials, are charged with implementing the laws and policies 
that govern national parks. The idea that state park officials, however 
well meaning or talented, could readily step into the shoes of the 
National Park Service and do the job that is legally required is simply 
incorrect, and would constitute an abdication of responsibility by the 
Interior Department and the Congress of the United States.
    Instead of proposing legislation to pave the way for another 
Federal shutdown or a State take-over of our national parks, Congress 
should be working to avoid future shutdowns. Using the threat of 
another Federal shutdown as an excuse to promote a State takeover of 
national parks is cynical at best, and does nothing to address the 
genuine threats to our national parks from underfunding and other 
issues. These bills propose nothing to address the long-term problems 
facing our national parks; a meaningful proposal would actually provide 
national parks with the funds they need to be fully open. We need real 
solutions that will help our parks, visitors, and businesses who depend 
on them, not damaging solutions that do nothing to stop the slow-moving 
shutdown that is already occurring throughout our national parks as a 
result of budget cuts.

    H.R. 3492, the River Paddling Protection Act--NPCA strongly opposes 
this legislation that would undermine existing laws and regulations 
which for many years have served to protect the values of river 
sections in Yellowstone and Grand Teton National Parks. Grand Teton and 
Yellowstone National Parks (NPS) and the National Elk Refuge (NER) have 
been managed under long-standing regulations that prohibit boating on 
limited undesignated and designated wild and scenic river segments. The 
draft Snake River Headwaters--Wild and Scenic Planning Project already 
proposes to provide paddling access to over 300 miles of river or 86 
percent of all rivers under analysis of this plan. NPS and NER have 
determined that keeping a paddling closure on the remaining 14 percent 
is not only consistent with current law and policy but also will 
provide for appropriate protections for sensitive park and refuge 
wildlife, including grizzly bears, and appropriate range of non-boating 
recreational experiences. This legislation would open all of the park 
and refuge rivers to ``hand-propelled'' recreational boating, without 
considering the recreational and natural values for visitors who seek 
solitude and wild nature along the rivers in Yellowstone and Grand 
Teton.
    Thank you for considering our views.

            Sincerely,
                                             Craig D. Obey,
                         Senior Vice President, Government Affairs.

                                 ______
                                 

                     Greater Yellowstone Coalition,
                                          Bozeman, Montana,
                                                 November 20, 2013.

Hon. Raul Grijalva, Ranking Member,
House Subcommittee on Public Lands and Environmental Regulation
Washington, DC 20515.

Re: H.R. 3492--The River Paddling Protection Act

    For 30 years. the Greater Yellowstone Coalition (GYC) has worked, 
with communities, landowners, recreationists and others around 
Yellowstone and Grand Teton National Parks, to conserve the world 
renowned land, water and wildlife resources found in this region. GYC 
strongly opposes this legislation. H.R. 3492 strips away the discretion 
of the National Park Service and sets a perilous precedent for 
legislating uses into some of our Nation's most cherished natural areas 
without a public process or adequate environmental analysis. This 
legislation would undercut existing laws and regulations which for 
years have protected the many values of rivers in Yellowstone and Grand 
Teton National Parks. Grand Teton and Yellowstone National Parks have 
been managed under long-standing regulations that allow boating in many 
areas. The draft Snake River Comprehensive River Management Plan 
already proposes to provide paddling access to over 300 miles of river 
or 86 percent of all rivers under analysis of this plan, The National 
Park Service and National Elk Refuge have determined that maintaining a 
paddling closure on the remaining 14 percent is not only consistent 
with current law and policy, but also will provide for appropriate 
protections for sensitive park and refuge wildlife and a range of non-
boating recreational experiences.
    This legislation is not the right mechanism to address recreational 
use in our national parks. It is a blunt approach that fails to 
consider the recreational and natural values provided by waters in some 
of the world's most popular and pristine places--Yellowstone and Grand 
Teton National Parks, and the National Elk Refuge.

            Sincerely,
                                             Caroline Byrd,
                                                Executive Director.

                                 ______
                                 

                                                 November 20, 2013.

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Subcommittee on Public Lands and Environmental Regulation
Washington, DC 20515.

Re: November 21, 2013 Subcommittee Hearing

    Dear Chairman Bishop and Ranking Member Grijalva:

    We the undersigned organizations, on behalf of our millions of 
members, are writing to you to express our opposition to three bills 
being considered this week by the House Natural Resources Committee: 
H.R. 3286, H.R. 3294 and H.R. 3311. These bills would allow States to 
demand management authority over our public lands (including but not 
limited to National Parks, National Forests, National Conservation 
Lands and National Wildlife Refuges), pave the way for future 
shutdowns, and undermine Federal environmental protections and land 
management laws.
    If anything is to be learned from the unnecessary and damaging 
government shutdown it is that Americans love their national parks and 
public lands. Just this week a new report from the Center for American 
Progress (CAP) showed that 75 percent of voters oppose any additional 
budget cuts to our public lands. Allowing State management of our 
Federal lands is not the answer to management or budget shortfalls and 
these bills do nothing to address the long-term problems facing our 
public lands.
    Instead of working to prevent a future government shutdown and to 
provide more resources to our drastically underfunded public lands, the 
committee is considering a slate of bills that would pave the way for 
more shutdowns and State takeovers of public lands. H.R. 3294 
essentially requires Federal land managers to hand over control of 
national parks, forests, wildlife refuges and other lands to States 
upon demand. Once in State control, Federal environmental and land 
management laws could be superseded by State laws, and revenues 
generated by resource extraction on public lands that would normally be 
used to benefit all Americans would be transferred to the State. H.R. 
3311 and H.R. 3286 pave the way for future government shutdowns, rather 
than ensuring they do not happen again, and would open the door to 
additional costly litigation aimed at the Federal Government by waving 
the Federal Government's sovereign immunity.
    The unnecessary government shutdown was just the latest blow to the 
agencies that manage our national parks, forests, conservation lands 
and wildlife refuges, all of which have faced significant budget 
reductions for years, putting Federal spending on conservation and the 
environment at the lowest point in decades.
    Rather than addressing the real budgetary and management issues 
facing our public lands these bills seek to address a symptom and not a 
cause, shifting responsibility to the States instead of addressing 
Congress' obligation to keep the government open and adequately fund 
our public lands. In sum, H.R. 3286, H.R. 3294 and H.R. 3311 are 
irresponsible and ineffective approaches to the management of our 
public lands, undermining Federal environmental law, paving the way for 
future shutdowns, opening the door to increased litigation and failing 
to address the true problems facing our public lands.
    We strongly urge you to oppose H.R. 3286, H.R. 3294 and H.R. 3311.

            Sincerely,

                            Center for Biological Diversity
                          Crow Canyon Archaeological Center
                                      Defenders of Wildlife
                               Endangered Species Coalition
          EPIC--Environmental Protection Information Center
                    Friends of the Missouri Breaks Monument
                                 Friends of Ironwood Forest
                         Grand Staircase Escalante Partners
                            High Country Citizens' Alliance
                                    Klamath Forest Alliance
                          Oregon Natural Desert Association
                                                Sierra Club
                                          The Lands Council
                                     The Wilderness Society

                                 ______
                                 

    Mr. Young. I can tell you what they say already. Why put 
them in the record?
    Mr. Grijalva. I am going to read them right now.
    [Laughter.]
    Mr. Grijalva. Mr. Nelson, let me just follow because you 
used some very interesting examples. If the Federal Government, 
based on the legislation that my colleague Mr. Young has, 
retains title but management authority is given to the States--
--
    Dr. Nelson. Or some other groups.
    Mr. Grijalva. Yes, I was going there. Or even a non-
governmental organization, I think you used the chartered 
school example as a governance example.
    Dr. Nelson. Well, yes.
    Mr. Grijalva. Who would be liable? OK. Let us talk about 
liability. Who would have liability for the activity of the 
land?
    Dr. Nelson. Well, think about the charter school model 
again, which is----
    Mr. Grijalva. So that would be retained by this governance 
group then?
    Dr. Nelson. So it is actually. It is not literally a non-
governmental organization, although it functions a lot like 
one, but anyway, it operates under certain rules and guidelines 
and so forth. So this would not mean the Federal Government 
would disappear.
    Mr. Grijalva. OK.
    Dr. Nelson. The Federal Government would set the context 
and set certain broad guidelines and maybe then review the 
operations on an annual basis.
    Mr. Grijalva. Accepting that there is no non-disappearance 
entirely of the Federal role, who pays the bills?
    Dr. Nelson. That would be part of the whole discussion.
    Mr. Grijalva. OK.
    Dr. Nelson. I mean, you would have to look at the specific 
situation.
    Mr. Grijalva. And compliance with Federal laws would fall 
where?
    Dr. Nelson. That would also have to be part of the 
discussion. I mean, part of the reason why the system does not 
work now, as I said, is----
    Mr. Grijalva. So a step----
    Dr. Nelson [continuing]. It is again----
    Mr. Grijalva [continuing]. I call them bedrock laws. Other 
people have other descriptions for them, but you know, things 
like NEPA, Endangered Species, Clean Water Act, Historic 
Preservation, Native American Grave Protection.
    Dr. Nelson. I would leave all of those applying.
    Mr. Grijalva. OK.
    Dr. Nelson. The ones that I would look at are the Civil 
Service hiring procedures, which I think frustrate good 
governance; the contracting procedures, if you happen to notice 
Obamacare. I would also look at and basically get rid of the 
land use planning requirements and the EIS requirements which 
are just invitations for litigation that turn the management of 
these lands over to some other parties to exercise their 
management role through the courts.
    Mr. Grijalva. Thank you.
    Let me ask Mr.----
    Mr. Pruzan. Pruzan.
    Mr. Grijalva. Pruzan, and excuse me. You know, I have a lot 
of vowels.
    Mr. Pruzan. That is all right.
    Mr. Grijalva. And I get irritated when people mispronounce 
it. My apologies.
    As I understand it, on the management plan that you were 
talking about, the draft Snake River Comprehensive River 
Management Plan that I think the sponsor of the legislation 
referenced, that draft has proposals to provide paddling on 300 
miles of river, 86 percent of all rivers, which leaves 14 
percent where the ban is going to be in place.
    So as I understand the legislation and your position, and I 
do appreciate you saying that whatever we do with the 
legislation has to be careful and meticulous because you do not 
want to set a precedent. I appreciate that comment.
    So we are talking here about an absolute 100 percent?
    Mr. Pruzan. You know, paddling has always been allowed on 
that other 386 miles.
    Mr. Grijalva. So that 14 percent is what?
    Mr. Pruzan. This goes a little broader than just the Wild 
and Scenic. The Wild and Scenic was another opportunity to look 
at those sections in Grand Teton and Yellowstone that have been 
closed. This bill goes a little broader in that, you know, 
Yellowstone itself, Yellowstone National Park is, you know----
    Mr. Grijalva. OK. But so in that 14 percent there is your 
estimate, and being a recreationalist there and a paddler 
there, there is no area that either wildlife habitat, other 
reasons that that should be protected and set aside from 
paddling activities?
    Mr. Pruzan. Yes. I mean, some of these are roadside areas. 
No, I do not think there is. People hike into these areas. I 
feel like any of those 14 percent in particular are acceptable 
for paddling.
    When we look at Yellowstone as a whole----
    Mr. Grijalva. So with that kind of management plan----
    Mr. Pruzan. Can I finish please?
    Mr. Grijalva [continuing]. That is your point of 
contention, the 14 percent.
    Mr. Pruzan. Well, it goes beyond that because it also looks 
at Yellowstone. We do not feel that every river in Yellowstone 
should be open all the time. That is not what we are saying at 
all, and it says that in my testimony. But we feel there are 
many stretches that could be opened and managed successfully, 
and there are many great templates for that.
    And we do not feel there has been opportunity to even look 
at that. The Wild and Scenic was just an opportunity to look at 
a portion of those, and it was denied, which was, you know, 
unfortunate because Yellowstone itself, it has some of the most 
outstanding river running opportunities in the world.
    Mr. Grijalva. Yes, but I remain----
    Mr. Pruzan. Of that portion----
    Mr. Grijalva. I am just looking at percentages.
    Mr. Pruzan. Of that 14 percent, absolutely, all that 
section could be opened to paddling with very, very----
    Mr. Grijalva. No mitigating information or----
    Mr. Pruzan. Well, no. I think you would have to look at 
them individually. We want to give that authority to the 
Superintendent, but as I know those sections, you know, I do 
not see any harm and I do not see anyone really standing up 
saying----
    Mr. Grijalva. And giving the authority to the 
Superintendent in this particular issue and this legislation, 
you are very confident that he would open up the 14 percent?
    Mr. Pruzan. I cannot speak for the Superintendent because 
right now, you know, that is in flux, but given the opportunity 
to allow the discussion and look at the actual impacts, then we 
could open the door to opening these. Right now, you know, the 
opening is not there.
    Mr. Grijalva. Thank you.
    Mr. Pruzan. Thank you.
    Mr. Bishop. Mrs. Lummis.
    Mrs. Lummis. Thank you.
    And, Mr. Grijalva, thank you for that dialog because it 
gets to the heart of what we are trying to accomplish with this 
bill.
    The intent is not to open all rivers all the time to 
paddling in the parks. The intent of the bill is to remove a 
prohibition so paddlers can sit down with the Superintendents 
of the parks and discuss where paddling makes sense, when it 
makes sense and when it does not make sense.
    I recognize that the bill was drafted so that the 
Superintendent could still say no more paddling ever in these 
places, but at least there would be a public process where 
kayakers and other paddlers could come in and make their case.
    Mr. Pruzan, I would like to ask you to explain how other 
rivers are managed, how their management plans do provide for 
limits on paddling.
    Mr. Pruzan. Yes, thank you.
    You know, of all the rivers that people run all around the 
country, there are less than 30 that I can think of that 
actually have a permit system, and many rivers very close like 
the Clarks Fork and the Yellowstone, for instance, which is 
just adjacent to the park, it is totally open to river running 
at all times. People can use it when they want, and there are 
really no issues. It is a wild and scenic river. It flows 
through an incredible wilderness area, and there have been 
almost immeasurable impacts to the resource by the paddling 
that has been done there.
    But there are many great templates, you know, particularly 
in the State of Idaho, rivers like the Middle Fork of the 
Salmon, the Selway, in Arizona, of course, the Grand Canyon, 
where there is very tight river management. You have to draw a 
permit. There is a lottery system every year.
    The Selway, for instance, as I mentioned, one launch a day 
during the season. That is all you get, and the paddling 
community, the river running community, they understand that 
very well, and they feel that is, you know, a fair resolution.
    But as you mentioned, we have never even been able to have 
that discussion. I mean if there are wildlife concerns, there 
are other avenues and other tools that could be used, such as a 
season. You know, maybe some of these rivers are open in April 
and May, and then when the park gets very busy they are closed 
and they open again in late August and September, but again, we 
have never ever been able to have that discussion.
    And it was very different from the Forest Service approach 
to creating the management plan for the forest sections of the 
river, which was a very open process, lots of public meetings, 
lots of opportunity to comment, as opposed to the Park Service 
process which did not really give a lot of opportunity for the 
community to be involved.
    And I will say that for the most part in the greater 
Yellowstone area, there is great collaboration between the 
local community and the parks and the forest, and that is 
something that our area is known for, and there have been great 
partnerships that have been created about that, that just 
result in better management.
    Mrs. Lummis. Well, it has been a head-scratcher to me that 
we do allow controlled, managed, planned access for snowmobiles 
in the winter into Yellowstone, and yet during times of year 
when kayakers would like to use certain waters in the park, 
they cannot, and it is simply because of a regulation.
    So let us lift the regulation and give the park managers 
the tools that they need to actually have a dialog with the 
paddlers and find a way to put together a management plan that 
would allow for appropriate and limited use of these waters for 
another recreational outdoor opportunity that is very minimum 
impact.
    Let me also mention that the reason we put some language in 
here about the Elk Refuge is there are some waters that border 
both the Elk Refuge and Grand Teton National Park. The river is 
actually a border, and so we included some language for both so 
we can allow for a rational way to allow Grand Teton's 
Superintendent and the Elk Refuge to have some discretionary 
management authority to manage there.
    And my time is up. I want to really thank Mr. Pruzan for 
coming to Washington to testify on behalf of this bill.
    Thank you, Mr. Chairman.
    Mr. Bishop. Thank you.
    Allow me to ask some questions, if I could. Mr. Pruzan, let 
me start with you again here. Thank you once again for being 
here.
    I guess it comes down to the bottom line which is: is the 
old paddling prohibition still relevant to managing fish stock?
    Mr. Pruzan. Well, I do not think it was a provision that 
really even envisioned paddling. No, it is not relevant 
anymore. It was relevant to float fishing.
    I would say, you know, kayakers, we mostly throw ourselves 
in the water. We do not really throw lures or fishing lines in 
the water. So, no, I do not see it is relevant at all.
    Mr. Bishop. So allowing paddling certainly would not 
underlie the values for which this river was established or is 
used?
    Mr. Pruzan. No, absolutely not.
    Mr. Bishop. Well, do you see any potential pitfalls in 
changing the regulations to allow this activity?
    Mr. Pruzan. Well, again, by ending the ban, I think we can 
look at individual sections of river and we can recognize, 
well, what is appropriate and what is not appropriate. You 
know, I am sure there are--I have never heard any of my 
colleagues in the conservation world say, ``I am against 
paddling in Yellowstone,'' and especially with this bill they 
are more concerned about the process. So I do not----
    Mr. Bishop. So really what you are talking to me about is 
people simply will not talk to you all and they hide behind a 
regulation passed a half century ago that may or may not and 
probably is not still relevant to the issue for which it was 
established.
    Mr. Pruzan. That is correct.
    Mr. Bishop. We are tradition bound and we hide behind that, 
and we refuse to think outside the box, which is what all of 
you have been talking about so far.
    All recreation, not just kayaking and paddling recreation, 
but all recreation in the United States seems to be under 
attack by different kinds of groups. I do not care whether it 
is hunting or fishing or water recreation, bicycling, motor 
vehicles. We find as soon as there is something that is 
established, there are groups then that go after that.
    And establishing protection for these activities ought to 
be one of the goals that we look at, and one of the goals that 
I hope this committee takes a greater emphasis in dealing with 
to make sure that those things are protected so that if you 
have an assumption something is there and somebody has this 
wild idea because he or she happens to be a land manager and we 
are going to close it down, they had better find an alternative 
way to guarantee that activity has some place to go forward.
    I am sure you know nothing about this, but would there be 
any illegal kayaking that goes on on these rivers, people gone 
in places where they are not supposed to be?
    Mr. Pruzan. It has probably happened. I mean, when you 
think about--well, it definitely has happened.
    Mr. Bishop. You know, there may be a felony here. I do not 
want you to insinuate yourself----
    Mr. Pruzan. No, I just need to say something about the 
section that Representative Lummis mentioned, which is the 
Grovont River, which forms the border primarily between the Elk 
Refuge and Grand Teton National Park, and it flows through a 
little triangle of water.
    That was a section that people regularly floated around the 
Jackson Hole community. It is a pretty easy section. It goes 
right into the Town of Kelly, and for a long time nobody really 
was concerned about it, and then all of a sudden it was 
probably early 1990s, mid-1990s, there was enforcement, and a 
lot of people did not even realize it was illegal. So that is 
just one example.
    Mr. Bishop. And you did not destroy the fish habitat when 
you did that.
    Mr. Pruzan. No.
    Mr. Bishop. We have had many hearings over the course of 
this year in which we are talking about decisions that are made 
that are arbitrary, that are not really conducive to helping 
people out. We seem to have lost the concept, and 
unfortunately, the Park Service has their fair share of that.
    Mr. Sheaffer, the Interior Department did not write 
testimony on this particular bill. I wondered if you wanted to 
say anything about it, if you want to step into that quagmire 
with the other stuff.
    Mr. Sheaffer. I would certainly not, but I will say what I 
can. We had a very brief time to look at this bill and did not 
get a chance to vet it; talked briefly to the Superintendent of 
Yellowstone who coincidentally was in town, as I believe you 
may have as well.
    So I do not think we were in a position to comment at this 
point.
    Mr. Bishop. We will be looking forward to comments if you 
wish to add those in the future with the same literary zest as 
the other comments that we have had here.
    I am running out of time, but I do have a few more 
questions for Mr. Nelson. Do you have other questions, Mrs. 
Lummis?
    Mrs. Lummis. I do not have a question, but I would comment. 
I did meet with the Superintendent of Yellowstone, and we are 
open to suggestions about how the language could be drafted in 
a way that makes that Park Service comfortable. Our intent is 
just to give them the authority to make these decisions 
pursuant to a plan, and that hiding behind a regulation that 
actually bans it is contrary to the current intent of Congress 
certainly if this bill passes.
    Thank you.
    Mr. Bishop. Be careful. You guys are sounding too rational. 
You are sounding too green for me. You had better be careful on 
what you are saying here.
    Do you have other questions though before I finish up?
    Mr. Grijalva. No. I am just intrigued by the example that 
my colleague, Mrs. Lummis, used about snowmobiles and paddling. 
And as I mentioned to the Chairman while this was going on, 
that any day I will trade some paddling for a reduction in the 
snowmobiles in Yellowstone. I think that would not be a bad 
idea.
    But having said that, I think that, Mr. Sheaffer, I have 
questions. They will be in writing, and I appreciate your being 
here, and thank you.
    Mr. Bishop. I want to, if I could, just ask Mr. Nelson a 
couple of last things.
    In your written testimony, you make reference to the fact 
that there are six million acres in the Adirondack Park in New 
York; that New Jersey has 16 percent, Florida 14 percent, 
Pennsylvania 13 percent of their land already under State 
control and some kind of State----
    Dr. Nelson. Well, it has been that way for a long time.
    Mr. Bishop. And yet you notice in here----
    Dr. Nelson. It goes back in history that most of these 
State lands, you know, have been that way for just----
    Mr. Bishop. Well, I just want you to comment on the next 
sentence that you wrote. ``It is ironic that Eastern States 
have often been reluctant to extend a similar prerogative to 
develop their own internal State land management strategies to 
Western States.''
    Would you just like to comment on that?
    Dr. Nelson. Well, it is an amazing thing that the 
percentage of State land ownership in New York State is about 
35 percent, and it is actually greater than Alaska, and 
Adirondack Park is the most important part of that, which is 
six million acres, which is three times as big as Yellowstone, 
but it is an innovative or it is a different kind of management 
structure.
    A little more than half of the land is private, but it is 
subject to control by the Adirondack Park Commission. So there 
is a regulatory apparatus, and then the other half or a little 
less than half is actually State of New York land.
    And interestingly enough, in 1894, when Adirondack Park was 
set up, the State of New York designated that the State-owned 
lands in New York should be maintained in a forever wild 
status. So I just offer that as an example of how a State, when 
it has its own lands, in fact, it was anticipating by about 40 
years the wilderness ideal. So New York State has, in effect, 
been maintaining about three million acres, which again is 
bigger than Yellowstone in a wilderness status since 1894.
    Mr. Bishop. In 1894 I think there were only two national 
parks we had, Yellowstone and Yosemite and Mackinaw had been 
given back to Michigan by that point. So this predates a lot of 
those particular efforts.
    Obviously, the Young language has apparently touched a 
nerve at Interior. What does the Federal Government have to 
lose by allowing States a greater place in the management of 
the lands between their borders?
    Just estimate why do you think? Of what are they afraid?
    Dr. Nelson. Well, I think, I mean, a lot depends on how it 
is done, and frankly, I think that Representative Young would 
agree that this is really just the outline of a proposal, and 
that it would be a tremendous number of details that would have 
to be, or not tremendous, but quite a few details. A lot of 
things would have to be looked at and worked out to even come 
close to operationalizing this idea that he is putting on the 
table.
    But the question is why would the Interior Department 
resist it? I mean, what you are talking about is maintaining 
Federal lands, but you would be cutting down in a rather 
dramatic fashion the bureaucratic apparatus of the Bureau of 
Land Management.
    And the same would apply to the Forest Service. If you were 
to do it, you know, the Forest Service has 35,000 employees. If 
you actually implemented the Young legislation, you might be 
looking at 5,000 employees, and obviously that is going to, you 
know, provoke some pretty strong reaction.
    Mr. Bishop. I appreciate that, and that is one of the 
reasons why I prefaced our meeting today by simply saying the 
idea of large centralized, bureaucratic institutions making 
decisions has been discredited and ought to be, but apparently 
we do not do that in Washington often enough.
    I think you mentioned a 2005 work that said what to do when 
an agency outlasts its time, and I think what you are talking 
about is looking at new ways of thinking about that.
    Mr. Sheaffer, I will end with this last diatribe if I 
could. Once again, I do appreciate what you are doing as 
Comptroller. I have no qualms that you are doing a very good 
job at what you are doing, although I want you to find those 
two million bucks that you got extra and they had better go 
back to the States at some time.
    But the testimony the Department sent you up here to defend 
and suffer the slings and arrows that go along with it on this 
bill and the Young bill especially said the same thing. They 
basically said States could not possibly manage these lands. 
They were incompetent to do it. The Federal Government knows 
better.
    There are three conventional wisdom concepts that I would 
like you to take back to your agency. The first one is only 
people in Washington have the grand view of what is necessary 
and important for the United States.
    Number two is only people in Washington should be 
recognized whenever there is a conflict between Washington and 
local government.
    And the third conventional wisdom is that the West needs to 
be protected from itself.
    All three of those principles and standards are crap. They 
should not be used, but unfortunately, many of the decisions 
that are being made not only by agencies in Washington, but 
some of the managers on the ground seem to be based on those 
same three principles, and those principles were, once again, 
reinforced in the testimony that the Interior Department sent 
up here.
    It is mind boggling to me why the Interior Department seems 
to insist that they know better, and they have this 
apprehension of ever having any kind of partnership with 
Interior projects, especially when they keep crying poverty at 
all times. If, for example, in Alaska you have one employee for 
every 54,000 acres of property in Alaska and still have a 
backlog that is over $120,000, you are obviously extremely 
efficient managers or you are simply an absentee landlord.
    And that is part of the problem. That is why I object to 
the testimony which they saddled you and brought you up here to 
defend and present to us. The verbiage had a message that is 
simply wrong, and we need to start thinking about new ways of 
handling our lands and new ways of making decisions because old 
and large is not effective. Young, lean, and different is what 
will be effective, and I hope this committee has the 
opportunity to keep spreading that message as time goes on.
    Unless there is something else, Mr. Grijalva?
    I want you to know I appreciate you taking the time to come 
here. I hope at different times we can invite you to come back 
again, Mr. Sheaffer. I do not know if you ever want to come 
back again, but you are certainly welcome to come back here 
again.
    Mr. Pruzan, I appreciate the input. I appreciate you coming 
from Wyoming and alerting us to a situation where once again 
individuals are harmed where they ought not to be, and this 
does not make any sense at all. We need to resolve these types 
of things.
    Mr. Nelson, we hope to invite you back here again. We 
appreciate your testimony and appreciate your patience.
    I also want to officially apologize once again for having 
to make you wait here for over an hour. It was what is like an 
hour and 15 minutes when I originally said we might be able to 
be back here as short as 45, and just remind you that is the 
way things used to run in the old time before a couple of 
sessions ago when we made some changes to try and alleviate 
that time.
    So I apologize for putting you in that situation. Thank you 
for your patience.
    There once again may be some additional questions, as the 
Ranking Member suggested for Mr. Sheaffer, that will be 
submitted in written form. We would ask you to please submit a 
written response back in a timely manner.
    And if there is no further business, without objection we 
stand adjourned.
    [Whereupon, at 1:39 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

       Prepared Statement of the U.S. Department of the Interior
concerning h.r. 3492, to provide for the use of hand-propelled vessels 
   in yellowstone national park, grand teton national park, and the 
              national elk refuge, and for other purposes
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide the views of the Department of the Interior on 
H.R. 3492, a bill to provide for the use of hand-propelled vessels in 
Yellowstone National Park, Grand Teton National Park, and the National 
Elk Refuge.
    Although the Department supports expanding outdoor recreation 
opportunities, we strongly oppose H.R. 3492 as introduced. By 
overriding existing regulations and regulatory authority over hand-
propelled boating, this legislation would set a troubling precedent by 
disrupting the carefully balanced management of recreational activities 
and resource protection that the National Park Service (NPS) provides 
at Yellowstone and Grand Teton National Parks and that the U.S. Fish 
and Wildlife Service (FWS) provides at the National Elk Refuge. It 
would diminish the ability of Federal managers to meet their 
responsibilities under the NPS Organic Act, the National Wildlife 
Refuge Administration Act, and other laws to provide for public 
enjoyment, ensure visitor safety, and address adverse effects to 
resources at those three units.
    H.R. 3492 would nullify regulations that prohibit boating on rivers 
and streams in Yellowstone National Park and Grand Teton National Park 
with regard to hand-propelled vessels and prohibit the promulgation of 
similar regulations. It would specify that the use of hand-propelled 
vessels on rivers and streams in the National Elk Refuge is a wildlife-
dependent recreational use, changing the statutory definition of that 
term for a single national wildlife refuge. Proponents of H.R. 3492 
contend that it would restore management authority over paddling to 
park and refuge managers but, in fact, it would deny managers the 
authority to exercise their professional judgment and management 
discretion regarding the use of hand-propelled vessels throughout the 
parks. H.R. 3492 would also circumvent the not-yet-completed public 
process to finalize the Snake River Headwaters Comprehensive River 
Management Plan.
Yellowstone and Grand Teton National Parks
    In Yellowstone and Grand Teton National Parks, all waters are open 
to hand-propelled vessels unless they have been closed to that activity 
by special regulations in Title 36 of the Code of Federal Regulations 
(36 CFR).
    In Grand Teton National Park, special regulations in 36 CFR Section 
7.22 have allowed abundant opportunities for paddling or floating on 
almost all the waters except for those in the remote, mountainous high 
country. Many thousands of visitors enjoy kayaking, canoeing, floating, 
and paddle boarding on the many lakes, including Jackson, Jenny, 
Phelps, Emma Matilda, Two Ocean, Taggart, Bradley, Bearpaw, Leigh and 
String Lakes. And, the iconic 26-mile stretch of the Snake River along 
the Teton Range though the park, considered one of our Nation's premier 
float trips, attracts over 60,000 paddlers each year to the park. Only 
a 1,000-foot stretch section of the river, immediately downstream of 
the Jackson Lake Dam, is closed due to public safety and Homeland 
Security concerns.
    Many paddling opportunities also exist in Yellowstone National 
Park. Of the 168 lakes within the park, only five are closed to 
boating, which provides ample opportunities for paddling, while also 
providing at least some opportunity to experience lakes in a pristine 
natural state. Over 1,300 paddlers recreate annually on the Lewis River 
Channel between Shoshone and Lewis lakes. The park issues an average of 
over 2,000 permits per year for non-motorized boating vessels.
    Since 1971, special regulations in 36 CFR Section 7.13 have closed 
certain waters in Yellowstone National Park to vessels, including 
Sylvan Lake, Eleanor Lake, Twin Lakes, and Beach Springs Lagoon and on 
all park rivers and streams, except on the channel between Lewis Lake 
and Shoshone Lake, which is open only to hand-propelled vessels.
    While our regulations do close some waters to boating, they provide 
a balanced approach that includes opportunities for a wide variety of 
recreation, including the use of hand-propelled vessels.
    The National Park Service Organic Act requires the NPS to provide 
for the enjoyment of park resources and values. This includes both 
opportunities for recreational activities and to experience the parks 
in their natural state. For over 40 years, the balanced approach 
provided by these regulations has successfully allowed for a variety of 
uses, including paddling, while also protecting the ability of park 
visitors to experience the solitude and wildness of pristine rivers in 
their natural state, without the visual intrusion of vehicles or 
watercraft. Millions of visitors come every year to Yellowstone to 
experience the natural wonders of the park. People from all corners of 
the planet are able to view the iconic Grand Canyon of the Yellowstone, 
paddle on Shoshone Lake, watch wolves in the foggy mornings along the 
banks of the winding Lamar River and experience the roar of the 
Yellowstone River as it travels through the Black Canyon.
    The National Park Service Organic Act also requires the NPS to make 
and publish such rules and regulations necessary or proper for the use 
and management of the parks so that they remain unimpaired for future 
generations. H.R. 3492 would fundamentally alter this authority by 
preventing the NPS from promulgating new regulations to prevent 
potential future impacts associated with boating in Yellowstone and 
Grand Teton National Parks.
    Many of the areas that would be opened to boating by H.R. 3492 see 
very little human activity and represent some of the most intact, 
pristine landscapes anywhere in the contiguous United States. There may 
be no other scenic resource like this in the United States, and 
possibly the world, where large intact river systems and their 
environments are allowed to remain in a wild, ecologically pristine 
state. The National Park Service has a responsibility to recognize and 
protect this uniquely Yellowstone experience. H.R. 3492 would not only 
arbitrarily open all of the waters in both parks to boating, but would 
prevent the NPS from promulgating any future regulations that might be 
necessary to ensure the proper management of boating on these waters.
The National Elk Refuge
    The primary purpose of the National Elk Refuge, as identified in 
statute and executive order, is the conservation of wildlife resources. 
The Gros Ventre River corridor between the National Elk Refuge and 
Grand Teton National Park is a heavily used ungulate winter range, a 
spring and fall migration corridor for elk and bison, and vital year-
round habitat for moose. Management of this area as wildlife habitat is 
key to meeting the purpose of the refuge.
    H.R. 3492 redefines the term ``wildlife dependent,'' a bedrock term 
in the National Wildlife Refuge Administration Act, as amended by 
National Wildlife Refuge System Improvement Act of 1997 (P.L. 105-57, 
``Improvement Act''), as it is applied to the National Elk Refuge. A 
key component of the act is that individual national wildlife refuges 
across the country (currently numbering 561) be managed as a coherent 
``system.'' Enactment of H.R. 3492 would undermine this basic tenet by 
micromanaging activities at a single national wildlife refuge through 
Federal statute.
Conclusion
    This precedent-setting bill as introduced would prohibit land 
managers from meeting their statutory responsibilities to properly 
regulate the use of Federal lands. The Department believes strongly 
that the existing authority granted by Congress to the NPS and FWS 
through the Organic Act and National Wildlife Refuge System 
Administration Act is critical to the proper management of these lands 
for all Americans.
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department on this legislation.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

    --``Free the American West--Get the federal government off 
            public lands that are of no importance'', 
            latimes.com Op-Ed, March 7, 2012, by Robert H. 
            Nelson.

    --``Our Languishing Public Lands'', Policy Review, February 
            & March 2012, No. 171, by Robert H. Nelson.

                                 <all>
</pre></body></html>
